No. 21IN THE
SUPREME COURT OF THE UNITED STATES
AMOS MAST, MENNO MAST, SAM MILLER, and AMMON
SWARTZENTRUBER,
Petitioners,
vs.
COUNTY OF FILLMORE, and MINNESOTA POLLUTION CONTROL
AGENCY,
Respondents.
On Petition for a Writ of Certiorari to
the Minnesota Court of Appeals
APPENDIX

APPENDIX A

Decision of State Court of Appeals................................... 1-12

APPENDIX B

Decision of State Trial Court.......................................... 13-75

APPENDIX C

Decision of State Supreme Court Denying Review ............ 76

APPENDIX D

Proposed Septic Tank Alternative [Exhibit 42]............. 77-78

APPENDIX E

Fillmore County Subsurface Treatment Ordinance ..... 79-83

23-CV-17-351

Filed in District Court
State of Minnesota
6/8/2020

This opinion will be unpublished and
may not be cited except as provided by
Minn. Stat. § 480A.08, subd. 3 (2018).
STATE OF MINNESOTA
IN COURT OF APPEALS
A19-1375
Amos Mast, et al.,
Appellants,
vs.
County of Fillmore,
Respondent,
Minnesota Pollution Control Agency,
Respondent.
Filed June 8, 2020
Affirmed
Worke, Judge
Fillmore County District Court
File No. 23-CV-17-351
Brian N. Lipford, Law Offices of Southern Minnesota Regional Legal Services, Inc.,
Rochester, Minnesota; and
Charles H. Thomas, Law Offices of Southern Minnesota Regional Legal Services, Inc.,
St. Paul, Minnesota (for appellants)
Brett A. Corson, Fillmore County Attorney, Preston, Minnesota (for respondent Fillmore
County)
Keith Ellison, Attorney General, Christina M. Brown, Assistant Attorney General, St. Paul,
Minnesota (for respondent Minnesota Pollution Control Agency)
Considered and decided by Connolly, Presiding Judge; Worke, Judge; and
Rodenberg, Judge.

Pet. App. 1

23-CV-17-351

Filed in District Court
State of Minnesota
6/8/2020

UNPUBLISHED OPINION
WORKE, Judge
Appellants argue that the district court erred by denying their claims for a
declaratory judgment that authorities mandating the installation of subsurface sewage
treatment systems (septic systems) violate their freedom of conscience under the Minnesota
Constitution, Minn. Const. art. I, § 16, and the Religious Land Use and Institutionalized
Persons Act (RLUIPA), 42 U.S.C. §§ 2000cc-2000cc-5 (2018). We affirm.
FACTS
Appellants Amos Mast, Menno Mast, Ammon Swartzentruber, and Sam Miller
(appellants) are all members of an Amish community in Fillmore County. In May 2015,
members of the community submitted a letter to respondent Minnesota Pollution Control
Agency (MPCA) stating their opposition, on religious grounds, to the requirement that they
use gray-water-treatment systems to dispose of their household wastewater.
A septic system is comprised of three main components: a septic tank, a drain field,
and oxygenated treatment soil. Gray water first flows out of the house and into the septic
tank. The septic tank functions as a settling chamber, wherein heavy solids in the
wastewater sink to the bottom of the tank and light oils, greases, and soaps float to the top.
After these heavy and light elements are separated, the gray water next flows into the drain
field, which is comprised of a series of perforated pipes that distribute the wastewater
across the field for absorption by the oxygenated topsoil. The drain field must contain at
least three feet of nonsaturated soil above the bedrock so that the oxygen in the soil can

2
Pet. App. 2

23-CV-17-351

Filed in District Court
State of Minnesota
6/8/2020

aerobically purify the remaining contaminates in the gray water before it enters the
groundwater.
The MPCA is directed to adopt rules for “the design, location, installation, use,
maintenance, and closure of [septic systems].” Minn. Stat. § 115.55, subd. 3(a) (2018).
The MPCA rules for individual septic systems are set forth in chapter 7080 of the
Minnesota Rules. Minn. R. 7080.1050-.2550 (2019). “The proper location, design,
installation, use, and maintenance of an individual [septic system] protects the public
health, safety, and general welfare by the discharge of adequately treated sewage to the
groundwater.” Minn. R. 7080.1050.
Sewage is defined as “waste produced by toilets, bathing, laundry, or culinary
operations or the floor drains associated with these sources.” Minn. R. 7080.1100, subp.
73. Gray water is defined as “sewage that does not contain toilet wastes.” Id., subp. 37.
“Sewage discharged from a dwelling . . . must be treated according to applicable
requirements.” Minn. R. 7080.1500, subp. 1.
Counties are required to adopt ordinances that comply with the MPCA rules. Minn.
Stat. § 115.55, subd. 2(a) (2018). Respondent Fillmore County adopted the relevant MPCA
rules in their entirety. Fillmore County, Minn., Sub-Surface Sewage Treatment System
Ordinance (FCO) § 501 (2013).1

The ordinance also provides specific alternative standards for members of the local Amish
community, which allow for a smaller septic system based on a flat-usage measurement of
100 gallons per day. FCO § 502.

1

3
Pet. App. 3

23-CV-17-351

Filed in District Court
State of Minnesota
6/8/2020

Instead of the generally statutorily prescribed septic systems,2 appellants
implemented their own experimental gray-water-treatment systems on their properties. In
appellants’ alternative-treatment systems, called mulch basins, the gray water flows from
the house, through a pipe, and into a large earthen basin dug into the ground and is filled
with wood chips. The wood-chip mulch functions in a manner similar to a septic tank,
filtering out solids and grease, and providing surge capacity until the discharged gray water
can be absorbed by the soil at the bottom of the basin. The oxygenated soil at the bottom
of the mulch basin aerobically purifies the wastewater in a manner similar to the soil
beneath a drain field in a septic system.
In April 2016, the MPCA filed administrative enforcement actions against Amish
families in Fillmore County. In April 2017, appellants filed a complaint in district court,
seeking a declaratory judgment that application of state and county rules generally
mandating the installation of septic systems to treat gray water violates appellants’ freedom
of conscience under the Minnesota Constitution and RLUIPA.3 4

In addition to the septic systems set forth above, gray water can also be treated in what
are termed type-five systems. So long as certain minimum standards are met, type-five
systems allow a licensed engineer to design a system and bear the risk that it will function
properly. See Minn. R. 7080.2400. Appellants did not propose that their alternative graywater-treatment systems satisfied rule 7080.2400, and therefore these types of systems are
not implicated on appeal.
3
Appellants also brought a claim for asserted violations of their rights under the United
States Constitution, which they later withdrew.
4
The county filed a counterclaim seeking an order that appellants bring their properties
into compliance with state and local zoning and wastewater-treatment rules, and if they fail
to do so within six months, an order that their homes be rendered uninhabitable. By
agreement of the parties, the bench trial was limited to appellants’ declaratory-judgment
claims, and the district court deferred ruling on the county’s zoning-enforcement actions.
2

4
Pet. App. 4

23-CV-17-351

Filed in District Court
State of Minnesota
6/8/2020

Following a bench trial, the district court determined that the general statutory
mandate for septic systems substantially burdened appellants’ sincerely held religious
beliefs. However, the district court also concluded that respondents met their burden of
establishing that septic systems—not mulch basins—are the least-restrictive means of
meeting the government’s compelling interest of protecting public health and the
environment. The district court therefore denied appellants’ request for declaratory relief.
This appeal followed.
DECISION
The interpretation of the constitution is a legal issue that this court reviews de novo.
Cruz-Guzman v. State, 916 N.W.2d 1, 7 (Minn. 2018). This court also reviews the
interpretation of a statute de novo. Cocchiarella v. Driggs, 884 N.W.2d 621, 624 (Minn.
2016). “On appeal, a [district] court’s findings of fact are given great deference, and shall
not be set aside unless clearly erroneous. . . . If there is reasonable evidence to support the
[district] court’s findings of fact, a reviewing court should not disturb those findings.”
Fletcher v. St. Paul Pioneer Press, 589 N.W.2d 96, 101 (Minn. 1999) (citation omitted).
Appellants assert that laws generally requiring them to install septic systems violate
their freedom of conscience under the Minnesota Constitution and their rights under
RLUIPA. Minnesota courts use a four-prong test to determine whether a governmental
regulation impermissibly burdens the freedom of conscience: “[1] whether the objector’s
belief is sincerely held; [2] whether the state regulation burdens the exercise of religious
beliefs; [3] whether the state interest in the regulation is overriding or compelling; and
[4] whether the state regulation uses the least restrictive means.” Hill-Murray Fed’n of
5
Pet. App. 5

23-CV-17-351

Filed in District Court
State of Minnesota
6/8/2020

Teachers v. Hill-Murray High Sch., 487 N.W.2d 857, 865 (Minn. 1992). Claims for
violations of RLUIPA are analyzed under an essentially similar four-prong test. See Holt
v. Hobbs, 574 U.S. 352, 362, 135 S. Ct. 853, 862-63 (2015); see also 42 U.S.C.
§ 2000cc(a)(1).
The district court found that requiring appellants to install septic systems on their
properties substantially burdened their sincerely held religious beliefs. Respondents did
not appeal these findings.

Under both the Minnesota Constitution and RLUIPA,

respondents bore the burden of demonstrating the existence of a compelling state interest
and that the regulation at issue is the least-restrictive means of achieving that interest. See
Holt, 574 U.S. at 363, 135 S. Ct. at 863 (regarding RLUIPA); State v. Hershberger, 462
N.W.2d 393, 395 (Minn. 1990) (regarding the Minnesota Constitution).
Appellants argue that the district court erroneously identified the compelling state
interest implicated by the state’s regulation of household-wastewater treatment.
Appellants also assert that the district court made erroneous findings of fact regarding the
feasibility of their proposed alternative gray-water-treatment systems, and thus the district
court’s legal conclusion that the state demonstrated that statutorily mandated septic systems
are the least-restrictive means of protecting public health was also incorrect.
Compelling state interest
Appellants first argue that the district court erroneously identified the compelling
state interest implicated by the state’s regulation of household-wastewater treatment. The
district court found that “untreated or inadequately treated gray water presents substantial
and serious danger to public health and risk to the environment, and that the [g]overnment
6
Pet. App. 6

23-CV-17-351

Filed in District Court
State of Minnesota
6/8/2020

has a compelling interest in protecting against those dangers.” Appellants acknowledge
that they stipulated to this governmental interest, but assert that they did not stipulate that
the government has a compelling interest in imposing the use of septic systems to treat gray
water.
During trial, the district court sought to clarify the terms of the parties’ stipulation.
The district court stated that it was “not sure that [the] stipulation goes so far as to be an
agreement . . . that gray water and its treatment pose significant risk to the public safety of
our water.” Counsel for the MPCA informed the district court that appellants did not
stipulate to the fact that “gray water was an imminent threat[,]” but they admitted “that
protecting Minnesota’s groundwater from contamination and protecting the health of
Minnesota citizens are both compelling state interests.” Appellants did not object to this
characterization of the stipulation.5
The district court’s finding regarding the government’s compelling interest is
comprised of two separate clauses. The first clause states that untreated or improperly
treated gray water is a threat to public health and the environment. This finding is
supported by the record and therefore is not clearly erroneous. See Fletcher, 589 N.W.2d
at 101. One of the MPCA’s experts, Dr. Sara Heger, testified that numerous published
studies indicate that there are potentially millions of bacteria and viruses present in 100
The MPCA argues that this issue regarding the proper characterization of the
government’s compelling interest was not raised below and should be deemed forfeited on
appeal in accordance with Thiele v. Stich, 425 N.W.2d 580, 582 (Minn. 1988). However,
as this on-the-record exchange shows, the district court raised the issue sua sponte and
attempted to clarify the contours of the parties’ agreement and where additional findings
would be required. On this basis, the argument is not forfeited.
5

7
Pet. App. 7

23-CV-17-351

Filed in District Court
State of Minnesota
6/8/2020

milliliters of gray water as indicated by the presence of fecal-coliform bacteria. She
characterized gray water as “a contaminant source that needs to be treated[,]” and stated
that surface water and groundwater need to be protected from inadequately treated gray
water.
The second clause of the district court’s finding recites that the government has a
compelling interest in protecting against the dangers of untreated or inadequately treated
gray water.

Appellants stipulated that protecting Minnesota’s groundwater from

contamination and protecting the health of Minnesota citizens are both compelling state
interests. Thus, the district court did not err in its identification of the relevant compelling
governmental interest, which was consistent with the terms of the parties’ stipulation and
based upon a finding that was adequately supported by the record.
Least-restrictive means
Appellants next argue that the district court erred by finding that their mulch-basin
system did not provide a less-restrictive means of accomplishing the government’s
compelling interest. Appellants assert that the district court improperly placed the burden
on appellants to demonstrate that their alternative worked, failed to consider appellants’
professionally designed mulch-basin system, and made findings that ignored evidence in
the record which supported the feasibility of their mulch-basin system.
The burden was on respondents to show that appellants’ mulch-basin system did not
adequately satisfy the government’s compelling interest in protecting public health and the
environment. See Hershberger, 462 N.W.2d at 399 (stating that the state failed to prove
that the white reflective tape and lanterns used by the Amish to mark their slow-moving
8
Pet. App. 8

23-CV-17-351

Filed in District Court
State of Minnesota
6/8/2020

buggies did not adequately protect public safety). Here, the district court correctly placed
the burden on respondents to demonstrate that the mulch-basin system did not adequately
protect public health and the environment. The district court stated that “the burden of
proof is on the [g]overnment to establish that its compelling state interest cannot be served
by a ‘less intrusive alternative.’”
Appellants concede that their experimental mulch basins overflowed. Minn. Stat.
§ 115.55, subd. 5a(b) (2018), provides that if an inspector finds that sewage discharges to
the ground surface, or if sewage backs up, “then the system constitutes an imminent threat
to public health or safety.”

However, appellants maintain that even though their

experiments were not successful at preventing sewage from seeping back onto the surface,6
the evidence at trial established that mulch basins have the potential to provide a lessrestrictive alternative to the government’s septic systems, and thus respondents failed to
meet their burden.
Appellants assert that the district court should have considered the feasibility of their
professionally designed mulch-basin system, which utilized an interconnected series of
four basins, rather than their homemade experimental single-basin system. Contrary to
appellants’ assertion, the district court did consider their professionally designed system,
finding that even though respondents asserted that they were prejudiced by the late
disclosure of the professionally designed system, it was admissible because the new system
Appellants point out that the same statutory provision that identifies a backed-up system
as an imminent public-health threat also allows the owner up to ten months to repair,
upgrade, or replace their septic system following the receipt of a notice of noncompliance.
See Minn. Stat. § 115.55, subd. 5a(b).

6

9
Pet. App. 9

23-CV-17-351

Filed in District Court
State of Minnesota
6/8/2020

“is simply an enlarged version” of the experimental system installed on appellants’
properties. The record therefore demonstrates that the district court properly placed the
burden on respondents to demonstrate that none of appellants’ proposed alternative
systems, including the professionally designed system, adequately protected public health
and the environment.
The remainder of appellants’ arguments pertain to their assertion that the district
court should have given more credit to the evidence that supported the feasibility of mulch
basins to adequately treat gray water and less credit to the evidence that demonstrated that
mulch basins were not feasible in Fillmore County. However, when considering whether
a district court’s findings are clearly erroneous, this court does not reconcile conflicting
evidence. Porch v. Gen. Motors Acceptance Corp., 642 N.W.2d 473, 477 (Minn. App.
2002), review denied (Minn. June 26, 2002). Similarly, appellants argue that the district
court should not have discredited the testimony of their expert witness while finding
respondents’ experts credible. However, “[t]he assessment of a witness’ credibility is the
unique function of the trier of fact.” Pelowski v. K-Mart Corp., 627 N.W.2d 89, 93 (Minn.
2001).
The district court’s findings regarding the unfeasibility of appellants’ mulch-basin
system are all supported by the record, and therefore are not clearly erroneous. The district
court found that Dr. Heger credibly testified that the biggest problem with appellants’
proposed alternative “is finding a system that you can put in subsurfacely that has three
feet of soil treatment.” She added that even if a suitable location with enough separation
could be found on appellants’ properties, “we’d also have to think about more ingenious
10
Pet. App. 10

23-CV-17-351

Filed in District Court
State of Minnesota
6/8/2020

ways to try to spread out the water. . . . [T]he issue is it would seal up relatively quickly
across the bottom because . . . there wasn’t a septic tank.” If the bottom of the basin did
seal, the only remedy would be “to move to another location unless you take that soil off,
and then there’s the risk of smearing and compacting that soil. When you do that, it may
not take water as well again.” This testimony goes to the general unworkability of mulch
basins in Fillmore County, not just the specific failures of appellants’ experimental system.
Finally, appellants assert that the acceptability of mulch basins in 20 other states,
and under the Uniform Plumbing Code—the relevant portions of which have not been
adopted in Minnesota—demonstrates that the district court incorrectly concluded that
mulch basins do not provide a less-restrictive means of disposing of gray water in a manner
conducive to protecting public health and the environment. See Holt, 574 U.S. at 368-69,
135 S. Ct. at 866 (“That so many other prisons allow inmates to grow beards while
ensuring prison safety and security suggests that the Department could satisfy its security
concerns through a means less restrictive than denying petitioner the exemption he
seeks.”).

However, the district court set forth the factual bases that support its

determination not to rely on the practices of other states.
The district court distinguished the practices in California and Arizona from the
situation in Fillmore County, because the climates “are so dissimilar in average temperature
and precipitation to Minnesota’s, that the [district court] can take little guidance from the
experience of those states.” Regarding the practices of more environmentally compatible
states, such as Montana and Wyoming, the district court found that “little or no evidence
was presented about the extent of use, regulation, and performance of mulch systems in
11
Pet. App. 11

23-CV-17-351

Filed in District Court
State of Minnesota
6/8/2020

those states. On this record, mulch systems in Montana and Wyoming provide the [district]
court no direction.” The district court also found that no evidence or information regarding
Wisconsin’s practices, which may permit mulch systems, was offered at trial. Based on
these findings, the district court did not err by declining to rely on the practices of other
states as persuasive authority for the feasibility of appellants’ proposed system in Fillmore
County.
Because the district court’s findings of fact are supported by the record, and thus are
not clearly erroneous, the district court properly concluded that “even with the capacity
expansion and siting improvements to which [appellants] are agreeable, [the mulch basins]
would not accomplish the [g]overnment’s compelling public health and environmental
safety purposes.” Therefore, the district court appropriately concluded that respondents
met their burden of demonstrating that appellants’ mulch-basin system does not provide a
less-restrictive means of accomplishing the government’s compelling interests of
protecting public health and the environment.
Affirmed.

12
Pet. App. 12

STATE OF MINNESOTA

IN THE DISTRICT COURT
CIVIL DIVISION
THIRD JUDICIAL DISTRICT

COUNTY OF FILLMORE
--------------------------------------------------Amos Mast, Menno Mast,
Sam Miller, and Ammon Swartzentruber,

FINDINGS OF FACT,
CONCLUSIONS OF LAW,
ORDER FOR JUDGMENT,
AND JUDGMENT

Plaintiffs,
vs.
County of Fillmore and
Minnesota Pollution Control Agency,

Court File No. 23-CV-17-351

Defendants.
AND
County of Fillmore, a Political
Subdivision of the State of Minnesota,
Plaintiff,
vs.

Court File No. 23-CV-16-844

Ammon J. Swartzentruber
and Sarah J. Swartzentruber,
Defendants.
--------------------------------------------------On November 26-30 and December 14 and 27, 2018, the above matters came before the
Honorable Joseph F. Chase, Judge of District Court, for court trial. Attorney Brian N. Lipford,
Southern Minnesota Regional Legal Services, Rochester, Minnesota, appeared on behalf of
Plaintiffs Amos Mast, Menno Mast, Sam Miller, and Ammon Swartzentruber. Fillmore County
Attorney Brent Corson, Preston, Minnesota, appeared on behalf of Fillmore County. Assistant

Pet. App. 13

Attorneys General Christina M. Brown and Janine Kimble, Saint Paul, Minnesota, appeared on
behalf of the Minnesota Pollution Control Agency.
(These cases are consolidated; but by agreement of the parties, the matters litigated at
trial were limited to determination of the religious liberty question under the Minnesota
Constitution and the Religious Land Use and Institutionalized Resources Act. Deferred for
future determination were other issues relating to enforcement of Fillmore County’s zoning
provisions.)
Based upon the evidence heard and the arguments and the written submissions of counsel,
the Court makes the following findings of fact, conclusions of law, and order for judgment:
FINDINGS OF FACT
1. All Plaintiffs are members of the Swartzentruber Amish community living in Fillmore
County, Minnesota.
2. The State of Minnesota Pollution Control Agency, and Fillmore County (collectively “the
Government”) require rural residences to have subsurface sewage treatment systems
(“SSTS”) for disposing of residential wastewater. The Government requires that “gray
water”— household wastewater originating from laundry, bathing and kitchen
activities—be disposed of through septic systems.
3. Plaintiffs object on religious grounds to installing the Government’s required septic
systems on their property to dispose of gray water.
4. Plaintiffs’ objection to installing gray water septic systems required by the Government is
based on a sincerely held religious belief.

Pet. App. 14

5. The Government’s regulation—that septic systems be installed on Plaintiffs’ properties to
dispose of gray water—substantially burdens Plaintiffs’ exercise of their sincerely held
religious beliefs.
6. The Government has a compelling interest in protecting human health and the
environment. Specifically, the Government has a compelling interest in ensuring that
gray water is properly treated so as not to transmit disease and introduce into the
environment harmful chemicals and nutrients.
7. The Government’s requirement that rural residents install gray water septic systems is the
least restrictive means of ensuring that gray water is properly treated such that public
health and the environment is protected. Plaintiffs’ proposed mulch basin system is a less
religiously burdensome alternative, but it does not adequately serve the Government’s
compelling interests in public health and environmental protection.
CONCLUSIONS OF LAW
1. Plaintiffs' Claim under the Minnesota Constitution, art. I, § 16:
a. As the Government has established that there is no less religiously burdensome
alternative that serves the Government’s compelling interests, Plaintiffs are not
entitled to relief declaring that the Government’s septic system requirement
violates Plaintiffs’ religious liberties under the Minnesota Constitution.
2.

Plaintiffs’ Claim under the United States Constitution:
a. During trial, Plaintiffs withdrew Count II, a claim based on the United States
Constitution. Pursuant to Minn. R. Civ. P. 41.01(b), it is appropriate for the Court
to dismiss this count with prejudice.

3. Plaintiffs’ Claim under the Religious Land Use and Institutionalized Persons Act
(“RLUIPA”), 42 U.S.C. § 2000cc et seq.:

Pet. App. 15

a. See Conclusion of Law § 1.a. The Government’s septic system requirement is the
least restrictive means of accomplishing its compelling interest in protecting
public health and the environment. Plaintiffs’ claim fails on this ground.
ORDER:
1. Judgment shall be entered for Defendants Fillmore County and MPCA denying Count I
of Plaintiffs’ Complaint, which seeks a declaration and injunction against Defendants
pursuant to Minn. Const. art. I, § 16.
2. Count II of Plaintiffs’ Complaint, which seeks a declaration and injunction against
Defendants pursuant to the United States Constitution, is dismissed with prejudice.
3. Judgment shall be entered for Defendants Fillmore County and MPCA denying Count III
of Plaintiffs’ Complaint, which seeks a declaration and injunction against Defendants
pursuant to RLUIPA, 42 U.S.C. § 2000cc et seq.
4. Determination of other issues relating to enforcement of Fillmore County's zoning
provisions in File No. 23-CV-16-844 is deferred.
The Court's memorandum, filed herewith, is incorporated herein.
LET JUDGMENT BE ENTERED ACCORDINGLY
Dated: April 22, 2019.

BY THE COURT:
_____________________________
Joseph F. Chase
Judge of District Court

Pet. App. 16

JUDGMENT
I hereby certify that the forgoing Findings of Fact, Conclusions of Law, and Order for
Judgment, dated April 22, 2019, by the Honorable Joseph F. Chase constitutes the judgment of
this Court.
Dated:
BY THE DEPUTY CLERK
________________________________
James D. Atwood
Court Administrator

Pet. App. 17

MEMORANDUM
Law
Minnesota
The law that governs the Amish Plaintiffs' constitutional challenge to the Government's
"gray water" septic system requirement is largely laid out in two prior Minnesota Supreme Court
cases that also involved the religious liberty of Fillmore County Amish. 1 In State v.
Hershberger, 444 N.W.2d 282 (Minn. 1989) ("Hershberger I"), the Minnesota Supreme Court
ruled on federal constitutional grounds that the Amish defendants in that criminal prosecution
could not constitutionally be required to display on their buggies the orange and red slow moving
vehicle ("SMV") sign mandated by Minn. Stat. § 169.522. The applicable test under the federal
constitution was described by the Hershberger I court as follows:
We address the Free Exercise Clause claim by observing that the United States
Supreme Court has considered three factors to predominate in an evaluation of a
Free Exercise Clause claim: (1) Is the objector's claim based on a sincerely held
religious belief? (2) Does the government regulation burden the exercise of that
religious belief? and, (3) Is the burden justified by a compelling state interest, which
cannot be served by a less intrusive alternative?
Hershberger I, at 285.
In applying this test, the Hershberger I court found that the Amish defendants' objection
to the display of SMV sign was based on a sincerely held religious belief, despite the fact that the
objection was not shared "by the [Fillmore County Amish] community as a whole." Id. at 285-

I will use the term "Government" herein when I refer to both the State of Minnesota Pollution Control
Agency and Fillmore County.
The constitutional dispute at issue here involves the Government's requirement that Plaintiffs install septic
systems to treat the "gray water" that comes from their households in Fillmore County. "Gray water" is water that
has been used in a home in sinks, washing machines, baths, and showers. The Government calls these systems
"subsurface sewage treatment systems" (SSTS). "Sewage," as the Government uses that term, means any type of
waste water from domestic activities, not just toilet waste water ("black water"), but also gray water. Amish
households use outhouses for toilets, a practice that is permitted by law. The dispute here relates solely to gray
water.
1

Pet. App. 18

86. The court found no support for the idea that one asserting rights under the Free Exercise
Clause of the First Amendment must "demonstrate that the sincerity of his or her belief comports
with a religious tenet or principle uniformly and sincerely held by a religious community of
which he or she is a member." Id. at 286. In fact, the court found that such a requirement had
been "uniformly rejected" in federal constitutional cases.
For example, in Thomas [v. Review Bd. of Indiana Employment Sec.], 450 U.S. at
714, 101 S.Ct. at 1430, the Supreme Court specified that "religious beliefs need not
be acceptable, logical, consistent, or comprehensible to others in order to merit First
Amendment protection." Rather, the Court explained, the focus is on whether the
one claiming the right individually has a sincere religious belief.
We see, therefore, that Thomas drew a line, and it is not for
us to say that the line he drew was an unreasonable one. Courts
should not undertake to dissect religious beliefs * * *.
******
Intrafaith differences of that kind are not uncommon among
followers of a particular creed, and the judicial process is singularly
ill equipped to resolve such differences in relation to the Religion
Clauses. One can, of course, imagine an asserted claim so bizarre,
so clearly nonreligious in motivation, as not to be entitled to
protection under the Free Exercise Clause; but that is not the case
here, and the guarantee of free exercise is not limited to beliefs
which are shared by all of the members of a religious sect.
Particularly in this sensitive area, it is not within the judicial function
and judicial competence to inquire whether the petitioner or his
fellow worker more correctly perceived the commands of their
common faith. Courts are not arbiters of scriptural interpretation.
Hershberger I, at 286, quoting Thomas, 450 U.S. at 715-16 (emphasis added by Hershberger I
court).
The Hershberger I court noted that the trial judge had:
[I]mplicitly determine[d] that application of the statute infringed upon the personal
sincere religious beliefs of appellants although not all in the Fillmore County Amish
community adhered to those same beliefs. The fact that at least one of the appellants
has already actually suffered jail incarceration, and that the others have persistently
expressed a willingness to do so rather than comply with the statute, must assuredly

Pet. App. 19

buttress that implicit finding that the appellants individually possessed a personal
sincerity of belief.
Id. at 287. Finding no requirement that "the claimant's belief be shared by the [Amish]
community as a whole," the Hershberger I court held that:
[T]hese appellants have met the initial test enunciated in Thomas by establishing
that their sincerely held religious beliefs protected them from displaying the
reflectorized emblem or the alternates required by the statute.
Id.
The Hershberger I court also found "without question" that "the second factor of the
Thomas test" -- that "application of the statute burdens the exercise of the appellants' religious
beliefs" -- was satisfied. Id. at 287. The Hershberger I court based its finding of burden on "the
potentiality, if not the certainty, of criminal sanctions including fines or jail time" that the Amish
parties would face as the result of "choos[ing]…fidelity to religious belief" over compliance
with state law.
Here, the burden on these Amish appellants is substantial. They face a choice of either
adhering to their religious beliefs by refusing to adopt "worldly symbols" bearing "loud
colors" and suffering the consequent criminal sanctions therefor, or rejecting those
beliefs in order to comply with the SMV statute.

Id.
The Hershberger I court then turned to analysis of the third Thomas factor:
Even though a challenger who asserts a Free Exercise claim has succeeded in
establishing the existence of a sincerely held belief and that the state's action has
substantially burdened the Free Exercise Clause right, the third requirement of a
Thomas analysis involves an inquiry into whether the burden is justified by a
compelling state interest which cannot be served by a less intrusive alternative.
Id. at 287-88.
The Hershberger I court "judicially notice[d]" that "the state's concern for safety of the
public using the highways, including these appellants, is a legitimate compelling state interest."
Id. at 288. But the court concluded that the State had "failed to establish that a less restrictive

Pet. App. 20

alternative would not serve its public safety concerns." Id. at 289. 2 The Amish defendants in
Hershberger I had proposed their own less restrictive alternative to the State's SMV sign
requirement:
The appellants here assert that since they do not object on religious grounds to
outlining the boxes of their buggies with silver reflective tape — a color they
consider acceptable because not "loud" — or to displaying red lit lanterns as a
supplement to the silver reflective tape, that there does exist a less restrictive
alternative to serve the state's public safety concerns. They further point out that
testimony at the hearing established that the silver reflectorized tape was at least as
bright, if not brighter than that outlining either triangular emblem mandated by the
statute.
Id. The State lost in Hershberger I because it failed to prove that the Amish-proposed silver
tape/red lights alternative would not work. The court held: "We conclude that the state's public
safety interest would not be significantly diminished were it to permit the use at night of silver
reflective tape used in connection with the display of lighted red lanterns by these appellants."
Id.
The Hershberger I court summed up its decision as follows:
[W]e hold that these appellants have established that each has a sincerely-held
religious belief that forbids him from displaying the SMV emblems required by
Minn. Stat. § 169.522; that state enforcement of Minn. Stat. § 169.522 which
subjects these appellants to criminal prosecution, with resultant potential fines or
jail incarceration, burdens the appellants' rights under the Free Exercise Clause; that
the state has a compelling public safety interest which Minn. Stat. § 169.522 seeks
to serve; but that the state's compelling public safety interest can be served by a less
restrictive alternative; and that, therefore, Minn. Stat. § 169.522 as applied against
2

The court first determined that a statutorily authorized "alternate emblem" and mode of marking Amish
buggies, allowed via government-issued permit, was also "burdensome to the religious beliefs of these appellants
who shun 'worldly ways.'" Id.

Id.

The alternate requirement that a black triangular sign be displayed during daylight hours and, as
well, that permanently affixed red reflective tape be employed is no less anathema to the appellants
and considered by them to be a burden on their personal religious beliefs than the "regular" statutory
requirement of display of the emblem as provided in Section 169.522, Subdivision 1(a).

Pet. App. 21

these appellants violates the Free Exercise Clause of the First Amendment to the
United States Constitution.
Id. at 289.
Hershberger I was appealed to the United States Supreme Court and certiorari was
granted. The U.S. Supreme Court then handed down its decision in Employment Div., Dep't of
Human Services of Oregon v. Smith, 494 U.S. 872 (1990) ("Smith II"), which "significantly
changed First Amendment Free Exercise Analysis" under the federal constitution. State v.
Hershberger, 462 N.W.2d 393, 396 (Minn. 1990) ("Hershberger II"). The United States
Supreme Court vacated the judgment in Hershberger I and remanded "for reconsideration in
light of" Smith II. Id. at 395. 3
On remand in Hershberger II, the Minnesota Supreme Court first declined to reconsider
its Hershberger I findings that the Amish appellants held a sincere religious belief forbidding use
of the SMV symbol, and that a less restrictive alternative to use of the symbol existed.
[T]he record before us remains as it was when we found the Amish appellants to
have demonstrated a personal sincere religious belief in conflict with the SMV
statute and the state to have failed to demonstrate that use of silver reflective tape
The Minnesota Supreme Court described the change wrought by Smith II in the federal constitutional
analysis as follows:
3

The Smith II court held a law of general application, which does not intend to regulate religious
belief or conduct, is not invalid because the law incidentally infringes on religious practices. This
holding apparently does away with the traditional compelling state interest test for laws burdening
the exercise of religion standing alone. 494 U.S. at ___, 110 S.Ct. at 1599-1603. The Smith II court
limited the compelling state interest test used by this court in Hershberger I to claims involving not
the free exercise clause alone, but free exercise in conjunction with other constitutional protections.
Id. at ___, 110 S.Ct. at 1601. These so called "hybrid" cases involve free exercise claims that touch
on other constitutional protections ranging from parental rights, e.g., Wisconsin v. Yoder, 406 U.S.
205, 92 S.Ct. 1526, 32 L.Ed.2d 15 (1972), to freedom of speech and press. E.g., Murdock v.
Pennsylvania, 319 U.S. 105, 63 S.Ct. 870, 87 L.Ed. 1292 (1943). Section 169.522 does not intend
to regulate religious conduct or belief. Accordingly, under the first amendment free exercise clause
as now interpreted by Smith II, whether the compelling state interest test is applicable apparently
depends on whether requiring the Amish to comply with the SMV statute infringes on rights other
than the free exercise of religion.
Hershberger II at 396.

Pet. App. 22

in conjunction with lighted red lanterns does not constitute a less restrictive
alternative to the SMV symbol.
Hershberger II at 395.
In Hershberger II the court reached the same result it had come to in Hershberger I.
Now, however, the court based its decision entirely on the Minnesota Constitution. The
Hershberger II court reviewed Article I, Section 16 of the Minnesota Constitution and found that
"Minnesotans are afforded greater protection for religious liberties against governmental action
under the state constitution than under the First Amendment of the federal constitution." 4
Hershberger II at 397.
The Hershberger II court adopted as its analysis under the Minnesota Constitution the
same religious-liberty-versus-compelling-state-interest balancing test it had employed in its
federal constitutional analysis in Hershberger I. The court ruled that it must:
[B]alance competing values in a manner that the compelling state interest test we
relied on in Hershberger I ably articulates: once a claimant has demonstrated a
sincere religious belief intended to be protected by section 16, the state should be
required to demonstrate that public safety cannot be achieved by proposed
alternative means. Hershberger I, 444 N.W.2d at 288-89.
This analysis is similar to that applied to the claim for religious freedom based
jointly on federal and state constitutional protection in State v. Sports & Health
Club, 370 N.W.2d 844 (Minn.1985). While we did not expressly base our decision
in Sports & Health Club on section 16 grounds, we held an exemption from the
state Human Rights Act was not required, notwithstanding that sincere religious
beliefs were burdened by the Act, because the state had a compelling interest in
prohibiting discrimination and no less restrictive alternative existed.
***

4

Article I, section 16, of the Minnesota Constitutions provides that:
The right of every man to worship God according to the dictates of his own conscience shall never
be infringed; . . . nor shall any control of or interference with the rights of conscience be permitted
. . .; but the liberty of conscience hereby secured shall not be so construed as to excuse acts of
licentiousness or justify practices inconsistent with the peace or safety of the state. . . .

Pet. App. 23

Thus, while the terms "compelling state interest" and "least restrictive alternative"
are creatures of federal doctrine, concepts embodied therein can provide guidance
as we seek to strike a balance under the Minnesota Constitution between freedom
of conscience and the state's public safety interest.
Id. at 398.
The Hershberger II court applied the state constitutional analysis to the Amish SMV
objections as follows:
Competing values of such significance require this court to look for an alternative
that achieves both values articulated in section 16. Specifically, if freedom of
conscience and public safety can be achieved through use of an alternative to a
statutory requirement that burdens freedom of conscience, in this case the SMV
symbol, section 16 requires an allowance for such an alternative. As we found in
Hershberger I, the state has failed to demonstrate that use of reflective tape and a
lighted red lantern proposed by the Amish is an insufficient warning to other drivers
of a slow-moving buggy. 444 N.W.2d at 289. The reflective tape and lighted lantern
provides an alternative that achieves both of the important values embodied in
section 16: freedom of conscience and public safety.
The record in this case demonstrates an important attribute of the balancing test we
adopt today for purposes of analyzing article I, section 16 of the Minnesota
Constitution. The state's interest in public safety cannot be disputed. Merely
because public safety is articulated as a competing interest in section 16, however,
does not establish that interest as paramount. To infringe upon religious freedoms
which this state has traditionally revered, the state must demonstrate that public
safety cannot be achieved through reasonable alternative means. It may be that a
claim for a religious exemption from public safety laws will seldom prevail over
the state's strong interest in protecting the lives of its citizens. Today we hold only
that the state has failed to provide a record which demonstrates that both values
embodied in section 16, freedom of conscience and public safety, cannot be
achieved through use of white reflective tape and a lighted red lantern.
Id. at 399. 5

5
The Religious Freedom Restoration Act of 1993 (42 U.S.C. § 2000bb et seq) and its sister statute, the
Religious Land Use and Institutionalized Persons Act (42 U.S.C. § 2000cc et seq), were enacted to statutorily restore
to federal law the broader protection of religious liberty that had been narrowed under the Smith II court's
constitutional analysis. The RLUIPA analysis is substantially identical to the Minnesota constitutional analysis
under Hershberger II, and thus the Court's decision herein under the Minnesota Constitution also determines
Plaintiffs' RLUIPA claims.

Pet. App. 24

The two Hershberger cases have obvious and close factual and legal similarities to the
present case. But they are not the only Minnesota appellate decisions that are informative
regarding this constitutional analysis. Hill-Murray Federation of Teachers v. Hill-Murray High
School, 487 N.W.2d 857 (Minn. 1992) dealt with the constitutionality of applying the Minnesota
Labor Relations Act ("MLRA") to a Roman Catholic-affiliated high school's labor-related
dealings with its teachers. After determining that there was no federal constitutional obstacle to
application of the MLRA to the school, the Supreme Court turned to analysis of the "greater
protection for religious liberties against governmental action" afforded by the Minnesota
Constitution. Id. at 865. The Hill-Murray court described the Minnesota constitutional analysis
as follows:
Because the Minnesota freedom of conscience clause provides more protection than
the Federal Constitution, we will not follow the United States Supreme Court's
limited analysis and will retain the compelling state interest balancing test. This test
has four prongs: whether the objector's belief is sincerely held; whether the state
regulation burdens the exercise of religious beliefs; whether the state interest in the
regulation is overriding or compelling; and whether the state regulation uses the
least restrictive means.
Hill-Murray at 865.
Regarding the first factor -- the "sincerely held religious belief" issue -- the Hill-Murray
court noted that "it is not the province of the court to examine the reason of religious beliefs or to
resolve purely religious disputes." Id. The court also noted that "judicial intervention into the
determination and interpretation of religious beliefs warrants caution." Id. The court
"recognize[d] the presence of a sincerely held religious belief." Id.
On the second factor -- the question of "the burden on the exercise of religious beliefs" -the Hill-Murray analysis arguably adds something to Minnesota case law. Hill-Murray High
School had argued that application of the MLRA to the school "would result in significant

Pet. App. 25

interference with the school's religious autonomy that would compel the school to negotiate and
compromise its doctrinal positions." Id. at 866. The court was not persuaded. "Hill-Murray
asserts that negotiations about conditions of employment will lead to negotiations about religion.
This assertion is remote and an insufficient basis to exempt Hill-Murray from the regulatory laws
of the state." Id. at 866 (emphasis added).
Negotiations under the limits of the MLRA do not possess the tendency to
undermine Hill-Murray's religious authority. Hill-Murray retains the power to hire
employees who meet their religious expectations, to require compliance with
religious doctrine, and to remove any person who fails to follow the religious
standards set forth.
While Hill-Murray may have demonstrated that the application of the MLRA
interferes with their authority as an employer, they have not established that this
minimal interference excessively burdens their religious beliefs.
Id. (emphasis added).
The Hill-Murray court found that the State's "overriding and compelling" interest "in
promoting the peace and safety of industrial relations, the recognition of the statutory guarantees
of collective association and bargaining, and the First Amendment protection of the right of
association outweighs the minimal infringement of Hill-Murray's exercise of religious beliefs."
Id. at 867 (emphasis added). Thus, the Supreme Court found no state constitutional problem
with application of the MLRA to the religious school.
The Hill-Murray court addressed the burden issue differently than the court had done two
years before in the Hershberger case. The Hershberger court had considered burden established
by the simple fact that the Amish defendants in that case faced "criminal sanctions including
fines or jail time" for following their religious beliefs instead of state law.
Unlike Hershberger, the Hill-Murray case did not arise in a criminal context. It is not
clear that anyone would ever go to jail if Hill-Murray High School refused to cooperate with the

Pet. App. 26

collective bargaining rights of its teachers under the MLRA. So in Hill-Murray, the burden issue
was not settled by the specter of criminal penalties being imposed on the religious objector.
The Hill-Murray court addressed other supposed burdens described by the school, and
found those arguments unpersuasive. It is not clear whether the Hill-Murray court was finding
no burden whatsoever on religious beliefs (the only burden the court describes is on the school's
"authority as an employer"); or rather, a burden on religion that was simply too small to create a
constitutional problem. But the court used language which implies that some burden on
religious rights might exist, but be insufficiently significant to require relief from the court. The
Hill-Murray court termed the school's burden arguments "remote" and "insufficient." "[T]hey
have not established that this minimal interference excessively burdens their religious beliefs."
Hill-Murray at 866 (emphasis added.)
In Edina Community Lutheran Church v. State, 745 N.W.2d 194 (Minn. App. 2008), two
churches objected on religious freedom grounds to application to them of certain provisions of
state law dealing with the lawful carrying of firearms. The trial judge had enjoined enforcement
against the objecting churches, finding that the law "excessively burdens the rights of [the
churches] protected by" the federal and state constitutions. Id. at 198. The Court of Appeals
affirmed on state constitutional grounds. Noting that the Minnesota Constitution affords greater
protection against governmental action affecting religious liberties than does the federal
constitution, the Edina Community court stated the test as follows:
Minnesota courts employ a heightened "compelling state interest balancing test"
when determining whether a challenged law infringes on or interferes with religious
practices. Hill-Murray, 487 N.W.2d at 865. The test has four prongs: (1) whether
the objector's beliefs are sincerely held; (2) whether the state regulation burdens the
exercise of religious beliefs; (3) whether the state interest in the regulation is
overriding or compelling; and (4) whether the state regulation uses the least
restrictive means.

Pet. App. 27

Edina Community at 203.
It is again on the burden issue that the court's analysis in Edina Community is instructive
here. The State in Edina Community argued "that the challenged provisions of the [law] present
only a de minimis burden on the church's exercise of their religious beliefs." Id. at 204. The
Edina Community court described the burden analysis as follows:
Under the second Hill-Murray factor, those challenging the application of a law
have the burden of establishing that challenged provisions infringe on their
religious autonomy or require conduct inconsistent with their religious beliefs.
Shagalow v. Minn. Dep't of Human Servs., 725 N.W.2d 380, 390-91
(Minn.App.2006), review denied (Minn. Feb. 28, 2007). To constitute such a
burden, the challengers must establish that the risk of interference with religious
beliefs or practice is real and not "remote." Hill-Murray, 487 N.W.2d at 866.
Religious institutions can be required to comply with statutes of general
application, and the focus is on whether compliance requires a change in "religious
conduct or philosophy." Rooney v. Rooney, 669 N.W.2d 362, 369
(Minn.App.2003), review denied (Minn. Nov. 25, 2003).
Id. at 204 (emphasis added).
The Edina Community court undertook a detailed discussion of exactly how the statutory
scheme collided with "the sincerely held religious beliefs of the respondent churches," refuting
point-by-point the State's arguments that the statutory requirements pose "only a de minimis
burden and do[] not force the churches to change their religious conduct or philosophy;" "do[]
not substantially burden the exercise of religious beliefs;" and create only "a minimal burden on
sincerely held religious beliefs." Id. at 204-05. In the course of that discussion, the Edina
Community court took guidance from Hershberger as follows:
The Minnesota Supreme Court has recognized that the compelled use of a specific
warning, whose color and meaning are mandated by the state, may sometimes be
"antithetical to" sincerely held principles of religious faith. Hershberger, 462
N.W.2d at 396. The fact that religious adherents are willing to convey a warning or
message on the same subject, using different methods or means of communication,
did not preclude the supreme court in Hershberger from finding that the statemandated slow moving vehicle symbol at issue substantially burdened religious
freedom.

Pet. App. 28

Edina Community at 205 (emphasis added).
The Edina Community court rejected each of the State's "de minimis burden" arguments,
holding that application of the law to the churches "significantly burden[ed] the sincerely held
religious beliefs of the respondent churches." Id. at 206, 208 (emphasis added). The Edina
Community decision, like Hill-Murray, uses language at least implying that a religious objector
may not be entitled to constitutional relief from application of a statute if the burden the statute
imposes on his/her sincerely held religious beliefs is not "substantial" or "significant," but rather
is "minimal," "remote," or "de minimis." Thus for purposes of analyzing the present case, I
assume the Amish Plaintiffs are required to show that the statutory requirement places a
"substantial," "significant," "real" and non-"remote" burden on or interference with the exercise
of their religious beliefs or rights of conscience.
Minnesota courts have determined on at least one occasion that an individual's
supposedly religious-based activity was, in fact, not connected with a sincerely held religious
belief, but rather with a "personal, secular belief." State v. Pederson, 679 N.W.2d 368, 376
(Minn. App. 2004). Ariel Pederson was prosecuted criminally for marijuana possession. Ms.
Pederson presented evidence that she used marijuana medicinally; that her use was "consistent
with her religious beliefs as a Messianic Jew;" and that, therefore, her prosecution violated
Article I, Section 16 of the Minnesota Constitution. Id. at 372.
The Pederson court rejected the constitutional defense. Quoting Wisconsin v. Yoder, the
Pederson court noted that while determining "what is a 'religious belief' or practice entitled to
constitutional protection may present a most delicate question, the very concept of ordered
liberty precludes allowing every person to make his own standards on matters of conduct in
which society as a whole has important interests." Id. at 374. The Pederson court noted that a

Pet. App. 29

number of jurisdictions had rejected similar religious liberty arguments in what might be termed
"The Church of Marijuana" cases. Id. at 374-75. The court noted that in Ms. Pederson's case, as
in prior similar matters in other jurisdictions, "no evidence" was presented that the defendant's
"religious belief in smoking marijuana" "was espoused by any organization or was a principle,
tenet, or dogma of any organization to which [she] was a member." Id. at 375. The Pederson
court affirmed the district court's finding that "appellant's beliefs in connection with the use of
marijuana are personal beliefs, based on a personal, rather than communal, interpretation of
religious significance." Id. at 373-74. "Appellant's isolated and anecdotal citations to scriptures
generally extolling the virtues of plant life are insufficient to prove that her medicinal use of
marijuana is a communal religious belief." Id. at 376.
In re the Matter of Jill Marie Newstrand, 869 N.W.2d 681 (Minn. App. 2015) provides
an example of just how cautious Minnesota courts are in questioning a religious objector's
sincerity of belief, and in evaluating the degree to which state law burdens that belief.
Newstrand involved a child custody dispute. There was reason to evaluate the father's mental
health, as part of the court's analysis of the child's best interests, under Minn. Stat. Sec. 518.131,
subdivision 1. The father refused to undergo a psychological evaluation on religious freedom
grounds.
Father is Rastafarian and claims that the tenets of that religion prohibit him from
obtaining a psychological evaluation. The district court did not question the sincerity
of father's belief, and mother does not dispute the sincerity of father's belief on appeal.
The record supports a determination that father's belief is sincerely held.
Newstrand at 687.

The father also contended that the statutory best interests analysis "unconstitutionally
burdened the exercise of his beliefs by forcing him to violate a tenet of his religion by
undergoing a psychological evaluation or suffer a restriction of his parenting time with J.J.I.A."

Pet. App. 30

Id. With little discussion, the Court of Appeals in Newstrand held: "Based on the facts in this
case, we conclude that the burden placed on father was real and not remote, potentially
interfering with his father-child relationship." Id. at 687-88.
Ultimately, however, the Newstrand court declined to exempt the father from application
of the statute. The court found that the State had a compelling interest in safeguarding the
physical and psychological well-being of children; and that the required psychological evaluation
was "the least-restrictive means available to verify [father's] mental capacity to parent J.J.I.A."
Id.
Interestingly, while prior cases have made clear that it is the State's burden to prove that
no less restrictive means was available, the Newstrand court faulted the father for "not
provid[ing] the district court with any specific less-restrictive alternatives to a psychological
evaluation." Id. at 690.
Based on the record before us, we conclude that none of father's vague alternatives
for verification of his mental health and fitness to parent was a viable less-restrictive
means to accomplish the state's compelling interest in protecting the children.
Id. The Newstrand court concluded "that Minnesota Statutes section 518.131, subdivision 1, as
applied, does not impermissibly violate father's constitutional freedom of conscience." Id.
United States Supreme Court
One cannot address a constitutional religious liberty-based argument made by Amish
parties without recognizing the United States Supreme Court's decision in Wisconsin v. Yoder,
406 U.S. 205 (1972). 6 Yoder involved Wisconsin's criminal prosecution of Jonas Yoder and

6
Of course the Yoder court applied the federal constitutional test as it was still articulated in 1972. But the
federal analysis used at that time was substantially the same as the state constitutional analysis Minnesota has
applied since Hershberger II. Yoder was relied upon by the Hershberger I court for the "compelling interest -- least
restrictive alternative test," Hershberger I at 287-88; and that analysis became, in Hershberger II, Minnesota's state
constitutional analysis.

Pet. App. 31

Wallace Miller for refusing to send their fourteen and fifteen-year-old children to school after
they completed the eighth grade. Wisconsin law required parents to have their children attend
school until they were sixteen. The Amish defendants declined to comply on religious grounds.
The trial testimony showed that [the Amish] respondents believed, in accordance
with the tenets of Old Order Amish communities generally, that their children's
attendance at high school, public or private, was contrary to the Amish religion and
way of life. They believed that by sending their children to high school, they would
not only expose themselves to the danger of the censure of the church community,
but, as found by the county court, also endanger their own salvation and that of
their children. The State stipulated that respondents' religious beliefs were sincere.
Yoder at 209.
The Yoder court's description of the evidence about the Amish is informative and
consistent with the evidence in the present case:
The history of the Amish sect was given in some detail, beginning with the Swiss
Anabaptists of the 16th century who rejected institutionalized churches and sought
to return to the early, simple, Christian life de-emphasizing material success,
rejecting the competitive spirit, and seeking to insulate themselves from the modern
world. As a result of their common heritage, Old Order Amish communities today
are characterized by a fundamental belief that salvation requires life in a church
community separate and apart from the world and worldly influence. This concept
of life aloof from the world and its values is central to their faith.
A related feature of Old Order Amish communities is their devotion to a life in
harmony with nature and the soil, as exemplified by the simple life of the early
Christian era that continued in America during much of our early national life.
Amish beliefs require members of the community to make their living by farming
or closely related activities. Broadly speaking, the Old Order Amish religion
pervades and determines the entire mode of life of its adherents. Their conduct is
regulated in great detail by the Ordnung, or rules, of the church community. Adult
baptism, which occurs in late adolescence, is the time at which Amish young people
voluntarily undertake heavy obligations, not unlike the Bar Mitzvah of the Jews, to
abide by the rules of the church community.
*****
[T]he record in this case abundantly supports the claim that the traditional way of
life of the Amish is not merely a matter of personal preference, but one of deep
religious conviction, shared by an organized group, and intimately related to daily
living. That the Old Order Amish daily life and religious practice stem from their
faith is shown by the fact that it is in response to their literal interpretation of the

Pet. App. 32

Biblical injunction from the Epistle of Paul to the Romans, "be not conformed to
this world . . . ." This command is fundamental to the Amish faith. Moreover, for
the Old Order Amish, religion is not simply a matter of theocratic belief. As the
expert witnesses explained, the Old Order Amish religion pervades and determines
virtually their entire way of life, regulating it with the detail of the Talmudic diet
through the strictly enforced rules of the church community.
The record shows that the respondents' religious beliefs and attitude toward life,
family, and home have remained constant—perhaps some would say static—in a
period of unparalleled progress in human knowledge generally and great changes
in education. The respondents freely concede, and indeed assert as an article of
faith, that their religious beliefs and what we would today call "life style" have not
altered in fundamentals for centuries. Their way of life in a church-oriented
community, separated from the outside world and "worldly" influences, their
attachment to nature and the soil, is a way inherently simple and uncomplicated,
albeit difficult to preserve against the pressure to conform. Their rejection of
telephones, automobiles, radios, and television, their mode of dress, of speech, their
habits of manual work do indeed set them apart from much of contemporary
society; these customs are both symbolic and practical.
As the society around the Amish has become more populous, urban, industrialized,
and complex, particularly in this century, government regulation of human affairs
has correspondingly become more detailed and pervasive. The Amish mode of life
has thus come into conflict increasingly with requirements of contemporary society
exerting a hydraulic insistence on conformity to majoritarian standards.
Yoder at 209-10, 216-17.
The Yoder court found that requiring Amish children to attend high school to age sixteen
posed an existential threat to a society that seeks "separation from, rather than integration with,
contemporary worldly society." Id. at 211. The court noted that "in the Amish belief higher
learning tends to develop values they reject as influences that alienate them from God." Id. at
212. The Yoder court described the "impact" of the state statute on Amish beliefs -- what
Minnesota courts call the "burden" on religious belief -- as follows:
The conclusion is inescapable that secondary schooling, by exposing Amish
children to worldly influences in terms of attitudes, goals, and values contrary to
beliefs, and by substantially interfering with the religious development of the
Amish child and his integration into the way of life of the Amish faith community
at the crucial adolescent stage of development, contravenes the basic religious
tenets and practice of the Amish faith, both as to the parent and the child.
The impact of the compulsory-attendance law on respondents' practice of the
Amish religion is not only severe, but inescapable, for the Wisconsin law

Pet. App. 33

affirmatively compels them, under threat of criminal sanction, to perform acts
undeniably at odds with fundamental tenets of their religious beliefs. See Braunfeld
v. Brown, 366 U. S. 599, 605 (1961). Nor is the impact of the compulsoryattendance law confined to grave interference with important Amish religious
tenets from a subjective point of view. It carries with it precisely the kind of
objective danger to the free exercise of religion that the First Amendment was
designed to prevent. As the record shows, compulsory school attendance to age 16
for Amish children carries with it a very real threat of undermining the Amish
community and religious practice as they exist today; they must either abandon
belief and be assimilated into society at large, or be forced to migrate to some other
and more tolerant region.
Id. at 218.
The Yoder court described the burden imposed by the law on Amish belief as a "severe
interference with religious freedom." Id. at 227. In response, the State of Wisconsin argued that
its "interest in universal compulsory formal secondary education to age 16 is so great that it is
paramount to the undisputed claims of [the Amish] respondents that their mode of preparing their
youth for Amish life, after the traditional elementary education, is an essential part of their
religious belief and practice." Id. at 219.
The determinative question before the Yoder court was whether the State's "interest in its
system of compulsory education is so compelling that even the established religious practices of
the Amish must give way." Id. at 221. Because "fundamental claims of religious freedom
[were] at stake," the Yoder court determined that it "must searchingly examine the interests that
the state seeks to promote by its" statutory scheme. Id. at 221. After first acknowledging the
Jeffersonian principle of the importance of education to the American political system and
society, the Yoder court concluded that requiring an additional two years of compulsory
education of Amish children "would do little to serve those interests." Id. at 222. The court also
rejected Wisconsin's argument that the Amish position "foster[s] 'ignorance' from which the child
must be protected by the State." Id. The court recognized the State's "duty to protect children
from ignorance" (Id.), but rejected the "ignorance" argument as contrary to the facts. The

Pet. App. 34

Amish, the court noted, were a "productive," "very law-abiding," and "highly successful social
unit within our society, even if apart from the conventional mainstream." Id. The Amish, the
court noted, did not oppose education in general, but only "conventional formal education of the
type provided by a certified high school." Id. Their own "system of learning-by-doing"
"ideal[ly]" "prepar[ed] Amish children for life as adults in the Amish community." 7 Id.
The State's argument that children who choose to leave the Amish community would be
inadequately prepared for life in the outside world without the two additional years of
compulsory education mandated by the statute, was found "highly speculative."
There is nothing in this record to suggest that the Amish qualities of reliability, selfreliance, and dedication to work would fail to find ready markets in today's society.
Id. at 224.
To the degree the school-until-sixteen state policy was in part a means of preventing
exploitative child labor practices, the Yoder court found little to be concerned about in the
"employment of children under parental guidance and on the family farm from age 14 to age 16
[which] is an ancient tradition that lies at the periphery of such [child labor] laws." Id. at 229.
The Yoder court concluded that "accommodating the religious objections of the Amish by
foregoing one, or at most two, additional years of compulsory education will not…in any…way
materially detract from the welfare of society." Id. at 234. The court summed up its decision as
follows:
Aided by a history of three centuries as an identifiable religious sect and a long
history as a successful and self-sufficient segment of American society, the Amish
in this case have convincingly demonstrated the sincerity of their religious beliefs,
7
The Yoder court was unpersuaded by Wisconsin's suggestion that the state law promoted "the substantive
right of the Amish child to a secondary education" and should be upheld as a proper exercise of "the power of the
state as parens patriae to extend the benefit of secondary education to children regardless of the wishes of their
parents." Id. at 229. The court observed that this was not a case "in which any harm to the physical or mental health
of the child or to the public safety, peace, order, or welfare has been demonstrated or maybe properly inferred." Id.
at 230.

Pet. App. 35

the interrelationship of belief with their mode of life, the vital role that belief and
daily conduct play in the continued survival of Old Order Amish communities and
their religious organization, and the hazards presented by the State's enforcement
of a statute generally valid as to others. Beyond this, they have carried the even
more difficult burden of demonstrating the adequacy of their alternative mode of
continuing informal vocational education in terms of precisely those overall
interests that the State advances in support of its program of compulsory high
school education. In light of this convincing showing, one that probably few other
religious groups or sects could make, and weighing the minimal difference between
what the State would require and what the Amish already accept, it was incumbent
on the State to show with more particularity how its admittedly strong interest in
compulsory education would be adversely affected by granting an exemption to the
Amish.
Id. at 235-36.
Before leaving Yoder, I would note a passage in that decision that has particular
relevance to the present case:
[I]n the Middle Ages, important values of the civilization of the Western World
were preserved by members of religious orders who isolated themselves from all
worldly influences against great obstacles. There can be no assumption that today's
majority is "right" and the Amish and others like them are "wrong." A way of life
that is odd or even erratic but interferes with no rights or interests of others is not
to be condemned because it is different.
Yoder at 223-24 (bold and italics added).
Yoder was not the Supreme Court's last word on Amish religious liberty. In United
States v. Lee, 455 U.S. 252 (1982) an Amish employer 8 asserted that requiring him to participate
in the social security system interfered with his rights of free exercise of religion under the
federal constitution. The Supreme Court analyzed the sincerity of belief and burden prongs of the
constitutional analysis as follows:

"[T]he Amish believe it sinful not to provide for their own elderly and needy and therefore are religiously
opposed to the national social security system." Lee at 255. As the Yoder court had noted, there is a provision in the
social security law specifically created to accommodate Amish beliefs, by "exempti[ng]…such groups as the Amish
from the obligation to pay social security taxes." Yoder at 222 and fn. 11. The Lee court found, however, that the
statutory social security exemption "is available only to self-employed individuals and does not apply to employers
or employees." Lee at 256. The exemption did not, therefore, apply to Mr. Lee in his capacity as an employer of
other Amish at his farm and in his carpentry shop.
8

Pet. App. 36

Although the Government does not challenge the sincerity of this belief, the
Government does contend that payment of social security taxes will not threaten
the integrity of the Amish religious belief or observance. It is not within "the
judicial function and judicial competence," however, to determine whether appellee
or the Government has the proper interpretation of the Amish faith; "[c]ourts are
not arbiters of scriptural interpretation." Thomas v. Review Bd. of Indiana
Employment Security Div., 450 U. S. 707, 716 (1981). We therefore accept
appellee's contention that both payment and receipt of social security benefits is
forbidden by the Amish faith. Because the payment of the taxes or receipt of
benefits violates Amish religious beliefs, compulsory participation in the social
security system interferes with their free exercise rights.
Id. at 257. The Lee court noted, however, that this was:
[O]nly the beginning…and not the end of the inquiry. Not all burdens on religion
are unconstitutional. [authority cited] The state may justify a limitation on religious
liberty by showing that it is essential to accomplish an overriding governmental
interest.
Id.
The Lee court stated that "the government's interest in assuring mandatory and
continuous participation in and contribution to the social security system is very high." In other
words, the Government had a compelling interest. The court then analyzed "whether
accommodating the Amish belief will unduly interfere with fulfillment of the governmental
interest." Id. The court observed that "to make accommodation between the religious action and
an exercise of state authority is a particularly delicate task…because resolution in favor of the
state results in the choice to the individual of either abandoning his religious principal or
facing…prosecution." Id. However, "to maintain an organized society that guarantees religious
freedom to a great variety of faiths requires that some religious practices yield to the common
good. Religious beliefs can be accommodated…but there is a point at which accommodation
would 'radically restrict the operating latitude of the legislature.'" Id. The Lee court observed
that congress had accommodated religious beliefs by "grant[ing] an exemption, on religious
grounds, to self-employed Amish and others." Id. at 260. But noting that "the broad public

Pet. App. 37

interest in maintaining a sound tax system is of such a high order," the court held that "every
person cannot be shielded from all the burdens incident to exercising every aspect of the right to
practice religious beliefs." Id. at 260-61. The court rejected the argument for a "constitutionally
required exemption," ruling that "the tax imposed on employers to support the social security
system must be uniformly applicable to all, except as congress provides explicitly others." Id. at
256, 261.
Analysis
Plaintiffs' Objection Based Upon a Sincerely Held Religious Belief
Fillmore County contends that the Plaintiffs' objection to compliance with the
Governmental mandate at issue here does not arise out of sincerely held religious beliefs, but
rather from secular or cultural considerations. This was the threshold question addressed by the
United States Supreme Court in Yoder:
[W]e must be careful to determine whether the Amish religious faith and their mode
of life are, as they claim, inseparable and interdependent. A way of life, however
virtuous and admirable, may not be interposed as a barrier to reasonable state
regulation of education if it is based on purely secular considerations; to have the
protection of the Religion Clauses, the claims must be rooted in religious belief.
Although a determination of what is a "religious" belief or practice entitled to
constitutional protection may present a most delicate question, the very concept of
ordered liberty precludes allowing every person to make his own standards on
matters of conduct in which society as a whole has important interests. Thus, if the
Amish asserted their claims because of their subjective evaluation and rejection of
the contemporary secular values accepted by the majority, much as Thoreau
rejected the social values of his time and isolated himself at Walden Pond, their
claims would not rest on a religious basis. Thoreau's choice was philosophical and
personal rather than religious, and such belief does not rise to the demands of the
Religion Clauses.
Yoder at 215-16.
People may be resistant to the use of new technologies for a number of reasons that are
purely secular, philosophical, or personal. The cost of new technology may be high. It may be

Pet. App. 38

challenging to learn to use it. Some New Age folks want to live off the grid. And some of us
greet change with a reflexive and stubborn aversion that may stem from advancing age or simply
a sentimental attachment to the ways we have always done things. These motivations have
nothing to do with religion.
But the Amish objection to adoption of many aspects of modern technology is certainly
religiously based. In Hershberger I the Minnesota Supreme Court stated as follows:
A principle tenet of [the Old Order Amish] religion is that its adherents remain
separate and apart from the modern world. This concept of separation emanates
from Christian biblical directions to "be not conformed to this world," see Romans
12:2; and "Be ye not unequally yoked together with unbelievers," see II Corinthians
6:14.
Hershberger I at 284. The evidence was the same in the present case. The Amish religion is
part of the Anabaptist movement that arose in Europe in the Sixteenth Century. That movement
was the source of a number of distinct religious groups, including Hutterites, Mennonites, as well
as various Amish sects. Professor Johnson-Weiner, a retired professor from the Southern
University of New York who has studied the Amish, described the Anabaptist movement as:
[B]ased on a belief that church membership was voluntary, that you signaled your
membership in the church through baptism. You remained committed to a
scriptural way of life following Christ's example. It was characterized by pacifism
and nonresistance, a leadership with leaders chosen by lot, and it has evolved to
this day. Today's Amish are characterized by a determination to remain separate
from the world.
The way of life characteristic of the Amish results from their interpretation of scriptural passages
that tell them that in order to live a Godly life, they must separate themselves from the world and
adhere to the ways and practices of their forefathers and foremothers. See Ephesians 6:2:
"'Honor your father and mother' (this is the first commandment with a promise), 'that it may go

Pet. App. 39

well with you and that you may live long in the land.'" They follow and adhere to tradition in the
practices of their daily lives as an important part of their religious beliefs. 9
The Amish are the most conservative of the Anabaptist groups, meaning that they are the
least willing to adopt new, worldly technologies, and are "most separate" from the outside world.
But the Amish are not homogenous. The evidence indicated that there are some forty different
Amish affiliations. All Amish share certain aspects of their way of life. At baptism -- around
age 18 -- they commit to live a "scriptural life." They live in close fellowship and community
because they think individuals by themselves are too weak to lead a scriptural life. They do not
have insurance, because they all support others in need in their community in place of insurance.
Amish all still drive horses and buggies for local transportation; speak "Deitsch" (their dialect of
German) at home; use a German language bible and the Ausbund Hymnal; limit their
interactions with outsiders; practice adult baptism; and men wear no mustaches (because
mustaches were associated with the military in the 17th century). But they vary somewhat in the
degree to which they have accepted technological innovation. There are Amish in Pennsylvania
who have and use computers and indoor flush toilets; and some Amish bishops in Indiana own
cell phones. 10
The Plaintiffs are all members of the "Swartzentruber" Amish. Swartzentruber Amish
make up seven percent of all Amish, and are among the most conservative of Amish people.

Dr. Johnson-Weiner testified that the Amish are "always in church" in the sense that their religious rules,
arrived at through decision-making across time, dictate their clothing, haircuts, shoes, curtains, whether they burn oil
or propane, and so forth. The result is that it is impossible to separate Amish religion from Amish culture.
10
Prior cases, including Yoder, Hershberger I, and Hershberger II have described the Amish parties
involved in those cases as being "Old Order Amish." The Amish Plaintiffs here are also "Old Order Amish." The
evidence in the present case indicates that the distinction between "Old Order Amish" and "New Order" does not
describe any difference in their adherence to “old” ways, or acceptance of “new” ways, as one might possibly infer.
Rather, the distinction between "New" and "Old Order" lies in a more esoteric theological disagreement. Professor
Johnson-Weiner testified that New Order Amish, an outgrowth of Old Order, believe that one can have a personal
knowledge of one's salvation. "One can know one is saved." Old Order Amish do not share this belief. "The Old
Order will say that they have a hope of salvation. Whether or not one is saved is something only God can know."
9

Pet. App. 40

Swartzentruber Amish were the defendants in Hershberger I and Hershberger II objecting to the
display of slow moving vehicle signs. Professor Johnson-Weiner testified that the
Swartzentrubers "have remained the most separate from modern technology. They have
considered very, very carefully what new innovations they will permit in their communities and
have drawn the line at most."
The group of Fillmore County Swartzentruber Amish to which three of the four Plaintiffs
belong is a particularly conservative Swartzentruber church called variously the "Original
Canton" 11 or "Middle Canton" district or church (the terms district and church are used
synonymously here and mean a group of some 15 to 30 families who worship together and have
their own bishop and ministers). In all there are six Swartzentruber Amish districts or churches
in Fillmore County. 12 The evidence indicates that until about 30 years ago, all six were "in
communion" with each other -- meaning that they all would take communion at one another's
worship gatherings and their sons and daughters married across district lines. But the Original
Canton district separated from the other five in approximately 1986 or 1987. The evidence
indicates that among the Fillmore County Swartzentruber Amish, the Original Canton church is
the most conservative. 13
The Amish, including the Swartzentrubers involved here, have not flatly rejected all
technological innovations. The Amish have, as religious communities, made judgments about

"Canton" refers here to Canton, Minnesota, the Fillmore County town near which many Swartzentruber
Amish live.
12
In addition to the Original Canton church, they are the Northwest Canton, Northeast Canton, Southwest
Canton, Southeast Canton, and Preston Churches.
13
One example the witnesses were able to give of something permitted by the five more "liberal" Fillmore
County Swartzentruber districts but prohibited by the Original Canton district, has to do with flashlight use. All six
permit use of battery powered flashlights, but the Original Canton group requires that flashlights be handheld. The
other five districts allow flashlights to be affixed to hats -- a "headlamp" -- that allows use of a flashlight while both
hands remain free. Dan Swartzentruber also testified that Original Canton Amish do not "work in the towns" while
Amish from the other five Fillmore County Swartzentruber churches do.
11

Pet. App. 41

new technologies, machinery, devices, and practices, and decided whether or to what degree they
will permit themselves to own or use these items. For example, while Swartzentruber Amish do
no own or drive automobiles, they have determined it acceptable to ride in automobiles, trains,
and buses. Swartzentruber Amish do not own telephones, but have decided it acceptable to use
telephones, and to pay for telephone use. Swartzentruber Amish think it acceptable to use power
tools, such as table saws, if the tool is powered by a gasoline engine rather than an electric
motor.
The principle guiding these choices is keeping the Amish community separate from the
world; and therefore decisions are made based on judgments as to how particular innovations
would impact the community. For example, automobile ownership -- and the resultant ability to
travel long distances fast and easily -- would unacceptedly expand the geographical boundaries
of Amish communities that the Amish intend to remain small and tightly knit. 14
It might seem to an outside observer that these Amish choices and distinctions -- between
technologies, and between ownership and use -- are inconsistent with a professed repudiation of
worldly ways. Some "English" might gather that, for all their supposed disdain of the things of
the world, the Amish are in fact willing, on the sly, to circumvent their own supposed religious
principles via technicalities or crafty work-arounds. Thus, the non-Amish observer might
interpret practices such as use of an "Amish phone booth" as proof that Amish religious beliefs
are not so sincerely held after all; and that the claimed Amish rejection of worldly ways is to
some degree a phony pretense.

14
I am reminded of a lyric in the opening song of Meredith Willson's The Music Man, in which the
traveling salesmen on the train to River City, Iowa identify the cause of the changing business realities in the
modernizing rural American Midwest: "Why it’s the Model T Ford made the trouble, made the people wanna go,
wanna get, wanna get up and go seven, eight, nine, ten, twelve, fourteen, twenty-two, twenty-three miles to the
county seat."

Pet. App. 42

A week-long trial does not make one an expert; and I claim no profound understanding of
the Amish religion. But I am convinced that such a conclusion -- that Amish peoples' limited use
of telephones, for example, or their acceptance of rides in automobiles for certain purposes,
betrays an insincerity in their religious beliefs -- is mistaken. It is inaccurate to say that the
Amish claim to use no modern technology. The Plaintiffs make no such claim. I am persuaded
by Professor Johnson-Weiner's testimony that the Amish have long made and continue to make
carefully considered judgments about the limits of permitted technology use in their lives. These
choices are informed by the scriptural mandate to remain separate from the world, and are based
on the judgments of the particular Amish church regarding what practices and technology use
goes too far in that direction, bringing worldly ways unacceptably into Amish life. The
Swartzentruber Amish understand themselves to be on a slippery slope of acceptance and use of
modern conveniences and technology. 15 Their caution in allowing use of new technology is
motivated in part by concern that a new step toward worldliness may accelerate a descent on that
slope toward broader acceptance of worldly ways inconsistent with scripture. The care with
which these decisions are made reflects Amish concern with the long-term Godliness of the
community. One of the Amish witnesses testified as follows about the example change sets for
the next generation: "[T]hey can look at me and I made this change...something that we never
had in our history and you made this change, you aren't going to tell me now I can't make the
next change."
This is a slow-changing but dynamic, rather than absolutely static, way of religious life
when it comes to technology use. The fact that the Amish have, over generations, made choices

The testimony indicated that, in the last 40 years, the Swartzentruber Amish of Fillmore County have
come to use telephones more than they did previously; accept (and make arrangements for) more automobile rides;
and accept more off-the-farm work than they used to.
15

Pet. App. 43

to allow some use of technology and prohibit other use, is not proof that their beliefs are a
pretense. Those choices about worldly ways are an integral part of Amish religious practice.
This cautiously considered discrimination between the permitted and prohibited
inevitably results in some fine distinctions being made (Shall battery flashlights be handheld
only, or are hat-worn flashlights acceptable?) and one might be puzzled at where the particular
Amish church draws the line. We might question its rationale or logic; it may not make sense to
us. But questions about where the Amish have drawn those lines do not undermine the
genuineness of the religious beliefs that necessitate the line-drawing. Nor am I persuaded that
the Court may substitute its judgment for that of a particular Amish church as to what technology
ought to be permitted consistent with Amish beliefs. 16 Religiously-based judgments are not
matters in which a Minnesota court may indulge in second guessing. Courts do not demand
"logical...consisten[cy]" of religiously-based beliefs entitled to constitutional protection.
While Swartzentruber Amish have found some limited use of modern technological
conveniences to be acceptable, broad rejection of such conveniences plainly remains the
principal reality and hallmark of their lives. To name a few: They do not drive automobiles, do
not have electric lights in their homes and farm buildings, do not use tractors or combines in their
fields, and -- this is the absolute deal breaker for many of us -- do not use modern flush toilets in
their homes. Because they have made these choices, Swartzentruber Amish live a life that is

Fillmore County, citing the Dordrecht Confession and the Book of Deuteronomy, points out that the
Amish also believe in following the law, respecting secular authority, not causing harm to their neighbors,
cleanliness, and caring for God's creation. "Those beliefs," the County argues, "conflict with [Plaintiffs'] refusal to
install a [state-mandated] gray water system." (Fillmore County's Memorandum/Final Argument, pp. 6, 11.)
If the County suggests, with this argument, that Plaintiffs are being dishonest in describing to the Court
what they think their faith requires of them, I am not persuaded. I find the Plaintiffs’ testimony about their beliefs
credible. If, on the other hand, the County is contending that the Plaintiffs' are theologically wrong -- that they are
placing too much emphasis on Paul's Epistle to the Romans ("Be not conformed to this world.") and too little on
other scriptural passages -- that is not a judgment for any court to make. "Courts are not arbiters of scriptural
interpretation." Hershberger I, at 286.
16

Pet. App. 44

much more labor-intensive and less comfortable than do most non-Amish Americans. One
cannot reasonably doubt the genuineness and sincerity of the Amish religious beliefs that cause
them to choose a life that is so much more physically demanding and wearisome -- in a word,
harder -- than that lived by most other Americans.
The Government argues that it is unclear that the Swartzentruber "Ordnung" is actually
violated by installation of a state-required septic system. The Ordnung -- the code or set of rules
governing Amish conduct and way of life -- is entirely unwritten. It is apparently orally
reviewed twice a year at a meeting of the church. But that does not mean that there is a
comprehensive recitation of all the existing rules; for example, no one has to announce
biannually that the Ordnung still prohibits driving automobiles and wiring houses with electricity
in order for those prohibitions to continue.
The Original Canton church has not voted on an Ordnung specifically prohibiting gray
water septic systems. That does not mean, however, that this new practice is not contrary to the
Ordnung. The response of the Amish parties at trial to Fillmore County's question asking what
Ordnung specifically prohibits installation of a gray water septic system, was essentially: This is
a septic system, and septic systems have never been permitted. The status quo for the Amish of
the Original Canton church is that this technology has always been, and remains, prohibited.
These people have never allowed themselves any septic systems, just as they have never allowed
themselves any automobiles. The Government is now requiring the Plaintiffs to install a device
they have never had, an innovation inconsistent with the Original Canton church's Ordnung
which has never permitted septic systems.
In addition to the testimony of the Plaintiffs, their wives, and other members of the
Original Canton church that installation of the state-required septic system violates their church's

Pet. App. 45

rules, the Court was provided the August 31, 2015 letter of Bishop Jacob Swartzentruber (cosigned by 53 others, including the Plaintiffs) stating to the Government the church's position:
In regard to the septic system requirement. We feel this is the way of the world and
we are not to go the way of the world as in Romans 12:2 it read and be not
conformed to this world, but be ye transformed by the renewing of your mind: that
ye may prove what is that good and acceptable and perfect will of God.
***
If we take a step in the wrong direction and teach our children and grandchildren
and lead them in that direction we will have to answer for it at the day of judgment[.]
We are again asking in the name of our Lord to be exempt and for given this
oppression that is being laid on us.
The Government points out that some other Swartzentruber Amish in Fillmore County do
not share Plaintiffs' belief that installation of state-mandated septic systems is a worldly way
forbidden by their faith. (See, for example, the testimony of Dan Gingerich.) Whether others
share a religious belief has some relevance here. Part of the reason the court rejected marijuana
use as a matter of religious belief in Pederson was that no "organization" of which the defendant
was a member espoused that belief; the Court determined that it was a "personal" rather than
"communal religious belief." Pederson at 376.
Here the evidence indicates that while not shared by some other Fillmore County
Swartzentrubers, the belief that the state-required septic system is scripturally forbidden is the
"communal religious belief" of the 30 families of the Original Canton church. This is not the
"Church of Marijuana," the supposed "religious beliefs" of which were idiosyncratic to an
individual. Hershberger I makes clear that a religious belief need not be "uniformly" held by all
adherents of a faith in order to be constitutionally protected. Again: "Intrafaith differences...are
not uncommon among followers of a particular creed, and the judicial process is singularly illequipped to resolve such differences.... [T]he guarantee of free exercise is not limited to beliefs
which are shared by all of the members of a religious sect." Hershberger I at 286.

Pet. App. 46

The Government, citing Beechy v. Central Michigan Dist. Health Department, 475
F.Supp.2d 671 (E.D. Mich. 2007), argues that not all Amish objections to state-mandated
modernity are religiously based. Beechy is interesting to anyone analyzing the present
controversy, because it dealt with Amish parties objecting to Michigan's gray water septic
system requirements. The Amish in Beechy did not object to putting in septic systems. Rather,
they objected to the requirement that a 750-gallon tank be part of that system. They asserted this
was larger than necessary to handle the amount of gray water produced by Amish households,
and they proposed the alternative of a septic system with a 300-gallon tank. They contended that
the state's 750-gallon requirement "impinges upon [their] religious freedom." Id. at 672.
The court in Beechy granted summary judgment against the Amish objectors on the
religious liberty claim. Asked at deposition why they objected to the 750-gallon tank, the Amish
parties in Beechy had cited the higher cost of the larger tank; and that the smaller tank "wouldn't
take as much work." Id. at 676-77. Religion was raised in their objections in only two respects.
First, on the necessary tank-capacity issue, they contended "that the Amish faith prevented them
from generating the amount of waste water necessitating a 750-gallon tank." Id. at 673. Second,
one of the Amish parties testified that "having a tank with such excess capacity would create a
temptation...to adopt more worldly ways." Id. Based on this record, the Beechy court concluded
there was no dispute of material fact on the threshold question of "whether the plaintiffs'
objections are based on religious beliefs" versus secular considerations. Id. at 679. The court
ruled that the uncontested facts "demonstrate that the objection to a 750-gallon septic tank and
the preference for a 300-gallon tank are based on secular, not religious concerns." Id.
[T]he [Amish parties] all cite to their religious beliefs and practices as support only
for their claim that they would not generate enough wastewater so as to need a 750gallon tank. Accepted in the light most favorable to the plaintiffs, the affidavits
prove that the CMDHD-required tank size is not needed by Amish families (and

Pet. App. 47

therefore the variance should be granted for practical reasons), but they do not state
or imply that installation of the 750-gallon tank violates their Ordnung, contravenes
a tenet of their faith, or interferes with the practice of their religion. Their religious
beliefs, which dictate their lifestyle, are offered as explanations for why they do not
need a larger tank, and nothing more.
*****
[T]he [Amish] plaintiffs never have plainly stated that the practice the defendants
seek to compel — installing a 750-gallon septic tank for the deposition of
wastewater on residential property — itself violates the tenets of the plaintiffs' faith.
Absent that declaration, the Court is left with the undisputed facts put forth in the
depositions, namely, that the plaintiffs' primary and sole objection to the tank
ordinance — and the reason they sought the variances — was based on cost,
convenience, and the practical fact that they just did not need to comply with the
capacity requirements ordained by the defendants. The Court must conclude,
therefore, that the defendants have not interfered with the plaintiffs' religious
practices, the ordinance does not substantially burden the plaintiffs' exercise of their
religious rights.
Id. at 674 (italics added).
Beechy stands for the proposition that not every Amish objection to governmentmandated technology is necessarily based on religious belief. But the evidence in the present
case is different than in Beechy. Here the Amish Plaintiffs, their wives, others from the Original
Canton church, and some other Swartzentruber Amish testified that installation and use of the
state-required septic system violates the tenets of their faith.
DAN SWARTZENTRUBER: "It's something that we feel would conform us with
the world and our forefathers felt that we shouldn't have them. The church has
never, in our congregation, has never had them. They haven't allowed them. It's
-- we feel it's something that would lead to the world....
That is our beliefs to keep as much as at all possible what our forefathers left us. If
we start straying from that, where will we stop? Honoring our forefathers is part
of our beliefs.
[W]e were taught that it would put us closer with the world.... It would conform us
with the world, we might say....
[W]hen our forefathers made the rules for the church, they went through what they
felt would be less conforming to the world, and they made their set of rules. When

Pet. App. 48

we joined the church, we agreed to those rules. We were baptized in those rules.
We take them very serious." 17
EMERY MILLER:
Q.
Why didn't you just install a gray water system or a septic system if
you were being threatened with all those things?
A.
Because I feel that that is the way of the world and Romans 12:2
says "be not conform to this world.... *** That's something that's never been
allowed in our church."
MENNO MAST: "It would burden my religious beliefs if I would put one in....
That is against my religious beliefs to put a septic system in."
AMMON SWARTZENTRUBER: "Well it's against my religious beliefs....
We've never had it before so we're not allowed to have it."
SUZI MAST: "Well I guess we want to do like our forefathers did."
VERNA MILLER: "We're afraid it's in the step of the wrong direction... I'd rather
not have those worldly things."
SARA SWARTZENTRUBER: "It's against the church rules."
ABE SWARTZENTRUBER:
Q.
Mr. Swartzentruber, did you want to install a gray water system?
A.
Not really, no.
Q.
Why?
A.
Because it was a tradition of before that we never had.
Q.
Is tradition important to your religion?
A.
Yes.
Q.
How so? Or why?
A.
Because we go by -- we have regulation of our traditions from handed down
from elders before.
MATTIE MAST: "It was against our religion."
Dan Swartzentruber has been one of the ministers of the Original Canton church since 2001. It was
interesting to learn during the course of this trial that there are no formally trained clergy in the Amish faith. Amish
ministers and even bishops are chosen by lot. No one goes to seminary. Few, if any, Amish are scriptural scholars
in the way that clergy in other religions often are. The leaders and authorities in Amish religious communities are
working farmers, farm wives, saw mill operators, carpenters, and so forth, all with less than a high school education.
It is not surprising, given these facts, that their descriptions of their faith and the governance of their church might
seem unsophisticated to outsiders.
As the evidence indicated in Yoder and here: "These people aren't purporting to be learned people." Yoder
at 223. Professor Johnson-Weiner described this religion as a "lived faith, not an intellectual one." The Court
would not expect an Amish farm wife to be able to explain her faith with the erudition of a Jesuit theologian. But of
course her faith is nonetheless entitled to equal respect.
17

Pet. App. 49

ELI HERSHBERGER:
Q.
If you put in a gray water system, that's not going to change anything as far
as how you're putting stuff down the drain, is it?
A.
No, not putting it down the drain. Not if you're talking gray water, no. But
it might. I could think of other things that wouldn't go down a drain. I
mean, it -- it might put the good of the church down the drain.
The testimony of the Amish Plaintiffs and their witnesses might be disbelieved by the
fact finder, just like anyone else’s testimony. Courts are not authorized to "dissect religious
beliefs," but courts do decide the credibility of testimony, by whomever offered. The trier of fact
could conclude that purported Amish religious objections to septic systems are actually a
disingenuous cover for the real, secular objection: The cost of putting in such a system.
But that is not my finding. To the contrary, I find credible the testimony of the Amish
plaintiffs that their objection to the state-mandated septic system stems from their religious belief
that these systems must be avoided as a way of the world, antithetical to a faith that tells them to
be separate in order to live as God intends.
I find that the Plaintiffs sincerely hold religious beliefs that are the basis for their
objections to the Government’s mandate at issue herein.
The Government Regulation Substantially Burdens Plaintiffs' Religious Beliefs
The Government contends that its gray water septic system requirement does not actually
burden -- or does not burden significantly -- the Plaintiffs' religious beliefs. In support of this
argument, the Government points out that these Swartzentruber Amish use various items of
"modern" technology: gasoline engines, some rubber tires, modern building materials (Tyvek,
for example), power tools, washing machines, and so forth. More specifically, the Government
points out that these Swartzentruber Amish move water into their houses using plastic piping and
large (1,000 gallon) tanks. These components, the Government observes, are the basic items that

Pet. App. 50

would make up the septic systems that would treat gray water coming out of the Plaintiffs'
houses, if the Government prevails here. The Hill-Murray and Edina Community cases indicate
that the burden element of the constitutional analysis involves a quantification of the burden: In
order to infringe on religious rights, the burden must be "substantial[]," significant[]," and not
"de minimis." 18 The Government asserts that since the Plaintiffs are already using some modern
technology and, more specifically, already use most if not all of the components and materials
that make up a gray water septic system, it cannot credibly be claimed that use of these same
items to build a gray water septic system is anything more than a de minimis burden on their
religious beliefs. So argues the Government.
The Amish Plaintiffs focus, however, on the sum of the parts -- the septic system -- rather
than on the components used to build it. The materials are unobjected to. But the septic system
built of those materials is a mechanism new to them and is religiously objected to. I find their
testimony on this topic credible. I see no inconsistency or implausibility in the Plaintiffs drawing
a distinction between plastic pipes and a tank and the septic system constructed of those
materials.
I am convinced that requiring Plaintiffs to install gray water septic systems imposes a
significant burden on their religious beliefs. First, the Hershberger test for burden is satisfied:
The Plaintiffs can be criminally prosecuted for not installing gray water septic systems. The
Government is requiring Plaintiffs, on pain of criminal penalties, to install on their properties a
permanent apparatus that is antithetical to their religious beliefs. Second, refraining from
ownership of worldly technology is central to Amish religious faith and practice. As Professor

Although Hill-Murray and Edina Community both describe this quantification aspect of the analysis,
neither (and no other Minnesota case brought to the court's attention) found that a religious faith was in fact
burdened, but that the burden was insignificant.
18

Pet. App. 51

Johnson-Weiner testified, this is a "lived, not intellectual, faith." Religion does not
comprehensively dictate for most of us what we own, the color of our shirts, how we wear our
hair, how we travel, and the tools we use -- not to mention broader rules of conduct such as
pacifism. For the Swartzentruber Amish, religion does control these things. Requiring these
religious people to build, own, and use on their properties an item of technology unused and
unknown to prior Amish generations, to which they sincerely object as a way of the world
prohibited in their lives by scripture, is a significant burden on their faith. So they testified; and I
believe them.
The Government points out that installation of a gray water septic system does not affect
the Plaintiffs' ability to believe, pray, gather as a congregation, worship, and in all other outward
respects continue to practice their religion in exactly their current manner. But it misses the
point to contend that all the Government is requiring is a single, isolated practice at odds with the
beliefs of this group of Swartzentruber Amish. A single deviation from religiously required
conduct -- one defilement -- may weigh heavily on the mind and conscience of the devoutly
religious believer.
The example that comes to mind is requiring an observant Jew who keeps kosher to eat a
single pork hotdog. No one would dream of minimizing the significance of such a violation of
religiously-based principles, even though that violation does not impede or prevent any other
religious activity -- prayer, attendance at worship, study of scripture, and so forth. We recognize
at once, in this context, that a single transgression of a sincerely believed religious dictate
substantially and significantly burdens belief. 19 And the violation of a religiously-based code of

The significant burden placed on religious belief by the state requiring an individual to do a single act in
conflict with that belief, is illustrated by the case of Sir Thomas More (the Roman Catholic patron saint of lawyers)
who went to the block in 1535 rather than acknowledge Henry VIII as head of the church in England.
19

Pet. App. 52

conduct in the present case is not transitory, as would be true of a one-time violation of a
religious dietary restriction, but rather is permanent. I find that Government-required installation
of gray water septic systems on Plaintiffs' farms will significantly burden their religious beliefs.
State's Compelling Interest Cannot be Accomplished by Less Religiously Burdensome
Means
Having found that the Plaintiffs' objections are based on sincerely held religious beliefs,
and that compliance with the Government's mandate significantly burdens those beliefs, the
Court turns to the question of whether the Government's compelling interest in protecting public
health and the environment can be accomplished by a means less burdensome to Plaintiffs'
religious liberty. On this issue, the Government bears the burden of proof.
Let us begin with a description of the public health and environmental risks at issue here.
Ms. Laura Allen, the Plaintiffs' expert witness on gray water treatment, testified that gray water
poses a "very small risk" to public health and safety. Ms. Allen noted that "no cases of any
disease have been documented to be caused by exposure to gray water" -- though she
acknowledged that there has been little scientific research on that public health question.
The Government's witnesses disagreed with Ms. Allen's minimization of the gray water
health risk. Dr. Sara Heger testified that while gray water is less dangerous from a human health
standpoint than is toilet "black water" (black water waste can contain ten to a hundred times
more coliform bacteria than gray water does), gray water carries contaminants and organic
materials such as human fecal material, disease organisms (pathogens) in the form of harmful
bacteria and viruses, and a variety of chemicals, commercial soaps and detergents (containing the
environmentally-problematic nutrients nitrogen and phosphorous). Dr. Heger testified that 100
milliliters of gray water can contain 10,000,000 coliform bacteria (an indicator of potential for
pathogenic bacteria and viruses). To put this number in perspective, it is considered unsafe to

Pet. App. 53

swim in water with more than 200 coliform bacteria per 100 milliliters. Untreated gray water
may carry a variety of pathogens that cause common illnesses like the flu and diarrhea, as well as
less common threats such as e coli and cryptosporidium. Dr. Heger testified that "whatever
might make you sick, that's also present in the gray water." MPCA soil scientist Brandon
Montgomery testified similarly: "So gray water is still a subcomponent of sewage, so to speak,
and there are still all of the pathogenic constituents found within that sewage; so there's bacteria
and viruses, protozoa that I had mentioned earlier, all of those things are still found in gray
water."
I find that untreated or inadequately treated gray water presents substantial and serious
danger to public health and risk to the environment, and that the Government has a compelling
interest in protecting against those dangers.
I also find that proper waste water treatment is of particular urgency in Fillmore County
due to its karst topography. That topography -- characterized by fissures, fractures, and
sinkholes in the slowly dissolving limestone bedrock -- permits much more rapid travel of waste
water to both ground and surface waters than would be the case elsewhere. It is possible, in a
karst area, for household waste water to reach a drinking water source in a time measured not in
years or decades (as may be the case in non-karst areas) but in days. Dr. Heger testified that
without "good treatment going on here with our septic systems, we could be contaminating that
drinking water aquifer much quick[er]." She testified that our "water is all connected;" and in
karst topography, that connection can be rapid.
Let us turn to the competing treatment technologies at issue here.
The Government requires a septic system for gray water treatment, though one that is
smaller in size because it is not intended to handle black water. The gray water septic systems

Pet. App. 54

permitted by ordinance in Fillmore County for Amish households are further reduced in size,
based on an assumption that Amish homes have less water usage (100 gallons per day) than nonAmish homes. (Fillmore County zoning officials think that they made a significant compromise
when they reduced the size of the required gray water system to accommodate the Amish.)
The alternative means of gray water disposal proposed by the Plaintiffs as less
burdensome to their religious beliefs than septic systems, is the "mulch basin" system. 20 The
Plaintiffs indicated that the mulch basin system is a gray water treatment technology they can use
consistent with their religious beliefs. The line drawn by the Amish Plaintiffs based on their
religious objection was: No septic tanks, and no pipe-utilizing drain fields. In other words, no
septic systems.
To analyze whether mulch basin gray water treatment systems are up to the job of
adequately protecting Minnesota's public health and environment, one must have some
understanding of how household waste water gets treated in rural Minnesota. The evidence
presented at trial provided the Court a primer on that subject matter.
In both systems -- the Government's septic system and the Plaintiffs' mulch basin system
-- the gray water starts the treatment journey by coming out of the house in a buried PVC pipe,
and it ends up going into the native soil where most of the treatment of farmhouse waste water
really happens. What is different about the two systems is how they deal with the gray water
between those beginning and ending points.

There is no religious liberty issue regarding the "straight pipes" the Plaintiffs were all using to dispose of
their gray water until recently. The Plaintiffs do not all share the Government's belief that gray water flowing
untreated from a straight pipe onto the ground surface poses a serious public health risk. (See the testimony of
Menno Mast, who does not agree that straight pipe gray water disposal is unsafe, and who declined to categorically
rule out ever again using a straight pipe in the future.) But recently the Plaintiffs have all given up straight pipe
disposal of gray water. They claim no religious freedom-based constitutional right to keep or return to straight
pipes.
20

Pet. App. 55

With the septic system, the waste water flows from the house into an underground septic
tank. In the tank the flow is slowed -- this is called "attenuation" -- during a period of "hydraulic
retention." During this two or three day period of slow movement through the tank, some
components in the effluent are sorted out. Heavy solids, lint, food particles and like debris sink
to the bottom of the tank; and lighter oils, greases, and soaps float to the top. The tank is a
"settling chamber" that provides initial "primary treatment" via this separation process, removing
these heaviest and lightest elements of the sewage and sending cleaner water out to the soil for
treatment. This reduces the contaminant load the soil is required to clean and extends the life of
the system. The sealed below-ground tank prevents the gray water and the pathogens it contains
from coming into contact with people. The contents of the tank are periodically pumped out and
hauled away.
From the septic tank, the cleaner gray water goes out a pipe to a drain field -- a
distribution bed made up of perforated pipes set either in trenches covered by at least one foot of
topsoil, or in an elevated mound where conditions make that necessary. From the pipes the water
flows out into a non-organic, non-biodegradable "distribution medium" -- often gravel -- the
purpose of which is to maintain the excavation, support the distribution piping, and create a
"void space" to store water (absorbing surges from the tank) until the soil can accept it for
treatment. In the drain field the waste water is broadly distributed through the medium into the
soil. The natural aerobic purification process, by which bacteria remove contaminants from
waste water, occurs in a layer of unsaturated, oxygenated soil beneath the pipes and distribution
medium.
The drain field must have sufficient capacity, meaning enough area to meet standard
loading rates (calculations of the square footage necessary for the particular soil type to

Pet. App. 56

adequately treat the volume of effluent flowing from the residence). And it must be at least
three feet above both of two "limiting conditions:" "Redoximorphic features" and bedrock. This
"three feet of separation" is required for proper treatment.
Treatment requires oxygen in the soil; and complete treatment requires an oxygenated
soil layer at least three feet deep beneath the drain field. The oxygen necessary for treatment is
not present in saturated soil. "Redoximorphic features" in the soil are distinctive, rust-colored
bands that mark the upper limit of the "perched" or "standing" water table -- the level at which
the soil is wet for extended periods of time. The redoximorphic features indicate, to those who
know what they are looking at, the dividing line below which the soil is saturated and anaerobic
(without oxygen); and above which the soil is dry and oxygenated enough to treat waste water.
The bottom of the drain field -- the "soil interface" where the waste water reaches the soil for
treatment -- must be located at least three feet above this line of demarcation -- the
redoximorphic features -- in order for there to be enough dry, oxygenated soil to treat the gray
water.
Bedrock, like saturated soil, does not treat waste water. Therefore the system-soil
interface must also be at least three feet above bedrock, defined as a layer with "more than 50%
rock." 21
Septic systems in Minnesota, including gray water systems, are professionally designed
and their siting is approved only after soil analysis is done. Properly constructed and timely
pumped, a septic system can be expected to reliably function for 25 years with little or no
maintenance. The Government's evidence convinced me that septic systems provide effective

21

There is also a depth limit of four feet from the ground surface to the interface, because the greater the
depth from the surface, the less oxygen there is in the soil.

Pet. App. 57

gray water treatment necessary to protect human health and the environment. The question is
whether there is an alternative that is religiously acceptable to the Amish and that also
accomplishes the compelling state interest of safeguarding public health and the environment.
Plaintiffs contend that mulch basin gray water systems are an equally effective and
feasible alternative means of achieving the Government's public health and environmental
objectives. In support of their position Plaintiffs presented the testimony of Ms. Laura Allen, an
Oregon-based author, educator, and founder of an organization called "Gray Water Action."
Twenty years ago Ms. Allen began to work in the gray water field because of her environmental
concerns, her interest in ways people could use less water, and the idea that "we should at least
reuse [the water] we already have." Ms. Allen has a bachelor's degree in environmental studies
and a master's degree in environmental education. She does not hold a degree in soil sciences,
hydrology, or engineering; but she has had extensive experience with mulch basin gray water
systems in the Pacific coast states and Arizona. She has taught courses and written books and
manuals on "water reuse" and the design and construction of "residential scale" gray water
systems. 22 The typical users of these systems, in Ms. Allen's experience, are "environmentally
aware" homeowners looking for "sustainable practices;" and homeowners in "water stressed
regions" both urban and rural. Ms. Allen has worked with west coast states and cities (most of
her work is in California and Oregon) developing codes for re-direction of gray water into the
landscape for reuse, often to irrigate trees, bushes, and ornamental plants. She has worked with
water utilities to educate customers about installing gray water systems.

For example, Ms. Allen was the main author of the San Francisco Public Utilities Commission's Gray
Water Design Manual, created to teach a "do-it-yourself type population how to build their own gray water
systems."
22

Pet. App. 58

Ms. Allen's professional focus is on "simple [gray water treatment system] designs that
don't require engineering" -- "we really don't want engineers involved because it makes the
systems too expensive." In Ms. Allen's opinion the "best [gray water] management practices"
are exemplified by Arizona's approach, which she considers "the safest way because it's easy to
comply with, it can be protective of environmental and public health. And so I personally think
that is the safest way. It allows for mass education, it's very low cost and low barriers for people
to comply with it."
In the mulch basin gray water systems proposed by Ms. Allen, the outlet pipe carries the
gray water out of the house to a large hole dug in the ground. This earthen "basin" -- an example
presented here was approximately four feet long by six feet wide by up to four feet deep -- is
filled to ground level with coarse woodchips or bark chips (the "mulch" in the "mulch basin"
system). Inside the hole, the gray water-carrying pipe enters a plastic "valve box" through an
opening in the side of the box; and the pipe terminates inside the box. This valve box sits on the
mulch bed, surrounded by and buried in mulch. The box (approximately 12 inches by 17 inches
by 12 inches in size), has no bottom; holes are drilled in its sides; and its interior is an empty "air
space." The top of the valve box -- a removable lid -- is flush with ground level. (To position
the lid at ground level, it may be necessary to lengthen the vertical dimension of the box with an
extender.) 23
The valve box serves to create a chamber inside the mulch basin into which the pipe
delivers the gray water. Gray water runs out of the end of the pipe into the valve box; it drops
An alternative design for creating the air space inside the mulch-filled basin into which the gray water
outlet pipe empties is depicted in Exhibit 42 (see diagrams 2 and 3 on the second page of that exhibit). This
alternative design involves cutting a 55 gallon plastic barrel in half, lengthwise. Half of the barrel -- a trough-shaped
structure -- is positioned on the mulch bed, open side down, with holes drilled in its sides. A hole is cut in the top of
the half barrel, and over this hole a valve box is affixed. The outlet pipe enters the valve box in the same manner as
in the "standard" design; and the effluent drops through the cavity created by both the valve box and the half barrel,
to land on the mulch bed.
23

Pet. App. 59

four to six inches through an "air gap" (which keeps the mulch from clogging up the end of the
pipe); and falls onto the mulch bed on which the valve box sits. The woodchip mulch filters the
water, with solids and greasy "gunk" sticking to the chips. The chips provide surge capacity,
holding water like a sponge until it can percolate down to and into the underlying soil. The
bacterial activity that treats the water begins in the air spaces in the mulch. The gray water
trickles down to the dirt floor at the bottom of the basin -- the soil interface of this system -- and
soaks into ("infiltrates") the soil where treatment happens in the same natural, aerobic manner
that it does with a septic system.
Ms. Allen testified that in California, the mulch basin system must be "at least three feet
above the ground water table." (She testified that in Arizona the requirement is five feet.) This
sounds similar to the "three feet of separation" the Government's witnesses testified is necessary
for effective treatment.
Diagrams of the configuration and elements a mulch basin system, explaining and
illustrating Ms. Allen's testimony, were presented in Exhibit 7 (example C was described as the
system most comparable to the Plaintiffs' systems and advocated by Ms. Allen for use here); and
in Exhibit 42. The bottom of the basin -- the dirt floor of the hole -- should be no deeper than
four feet from ground surface (this is consistent with the Government's evidence regarding the
maximum depth of the soil interface in a septic system drain field); and no shallower than two
feet, according to Exhibit 42. 24 The cross section diagrams on page 2 of Exhibit 42 indicate that

Whether Ms. Allen really believes that a two-foot depth would be sufficient to withstand freezing during
a Minnesota winter is unclear. She pointed out that household gray water is still relatively warm when it arrives at
the end of the outlet pipe in the valve box, even in winter. Ms. Allen acknowledged that Minnesota cold, something
she has never dealt with in her work, is a "key design consideration" that would require "slightly different
precautions" to avoid freezing. She contended, nonetheless, that mulch basin "gray water systems have been proven
across the country in many different climates," including places that freeze.
The Court did not find persuasive Ms. Allen's testimony that the climate in Yosemite National Park is
sufficiently similar to that of Fillmore County, such that her gray water experience in Yosemite translates and would
apply to the present case. The evidence indicated that the average high temperature in Preston, (CONTINUED)
24

Pet. App. 60

the outlet pipe should be at least 12 inches below ground surface; and that between the floor of
the valve box air space (the mulch surface onto which the gray water falls from the pipe) and the
soil interface (the dirt bottom of the basin) the mulch bed should be at least 12 inches in depth.
Ms. Allen agreed with the Government that a gray water treatment system must be
appropriately sized -- meaning that it must have sufficient area of soil interface to handle the
amount of gray water coming from a house. In the mulch basin system, capacity means adequate
square footage of the dirt floor of the basin(s). Ms. Allen testified that a conservatively designed
system would provide one square foot of soil interface per gallon of gray water produced per day
by the household. (One square foot per gallon is the ratio necessary for a system dug in a heavy
clay soil, in which the infiltration of water is slow. Less square footage would be necessary if
the system were installed in faster infiltrating loam.) Thus for 100 gallons per day (the Fillmore
County figure for Amish household gray water), the basin floor(s) would need to total 100 square
feet in area.
The mulch basin system has no septic tank. Ms. Allen agrees that gray water contains
solids, soaps and greases that a septic tank removes by settling and floating. But she asserts that
the woodchips in the mulch basin system perform essentially the same function of removing
these solids and greases from the effluent. The mulch catches and filters out this "gunk,"
allowing cleaner gray water to run through to the soil for the natural aerobic treatment process. 25

Minnesota in the months of December, January, and February is below freezing (with average monthly low
temperatures of 11, 6, and 10 degrees Fahrenheit, respectively). In contrast, at Yosemite the average high
temperature is not below freezing for any month (indeed, 47 degrees in December is as close as the average high
comes to freezing). Yosemite undoubtedly has snow; but that does not mean its climate is like Minnesota's.
25
It appears that in reaching and providing her initial opinions in this case, Ms. Allen may not have fully
understood the content of Amish household gray water. She stated in her report: "The Amish gray water systems
only contain water from their baths and washing machines." In fact, Amish gray water includes kitchen sink water,
an element that is so contaminant-laden as not to be permitted in gray water systems in California. (California also
prohibits putting laundry water from washing dirty diapers -- another not-uncommon element of Amish household
gray water -- into a gray water system.) (CONTINUED)

Pet. App. 61

Ms. Allen acknowledged that the mulch basin system requires more hands-on
maintenance than does the Government's septic system. She testified that the mulch that has
caught all the solids and grease dropping out of the pipe into the basin must be regularly
removed, hauled away, and replaced with fresh woodchips. Usually the schedule for lifting the
valve box lid to dig out and remove this dirty, decomposed mulch would be once per year.
However, because Minnesota Amish household gray water includes the dirtier, greasier kitchen
sink water, Ms. Allen testified that biannual basin maintenance would be necessary for the
Fillmore County Amish systems. In contrast, a septic tank requires pumping only once every
three to ten years.
Ms. Allen testified, however, that this twice-yearly maintenance would not require
emptying the basin(s) of all their mulch contents. Rather, Ms. Allen testified that only "five or
six shovel fulls" of decomposed mulch directly beneath the end of the outlet pipe would need to
be removed and replaced that frequently. The rest of the mulch in the basin would not be so
heavily loaded with contaminant material as to require such frequent change-out; it would
decompose, she testified, more slowly and need replacement only once every ten years. Ms.
Allen testified that mulch basin systems are "easy to maintain."
Ms. Allen was asked what assurance there is, in her experience, that this necessary,
regular maintenance of mulch basin systems by the owners actually takes place? She testified
that in the states in which she primarily practices, mulch basin gray water systems go essentially
uninspected and unmonitored by state and municipal authorities once put in place; and Ms. Allen

That kitchen water would be in Plaintiffs' gray water did not, however, change Ms. Allen's opinions. She
testified that kitchen sink water (and dirty diaper water) is still just "residential." She noted that, unlike California,
"Oregon would allow kitchen water, Washington allows kitchen water, Arizona allows it as long as it's subsurface."

Pet. App. 62

finds this laissez-faire regulatory approach appropriate. 26 The state or municipality gets involved
only if a system is not performing properly -- for example, by backing up and overflowing -- and
such a malfunction comes to light only when someone "notices and complains." Ms. Allen
testified that in densely populated San Francisco, for example, "if there's a problem, if someone
calls and is, like, my neighbor's dumping gray water in my yard, like, do something about it," the
city can take action against the violator for not maintaining the required setback. Detection and
enforcement require the "neighbors to notice something."
But what happens, Ms. Allen was asked, if the next-door neighbor lives a mile away, as
might be the case in Fillmore County? In that scenario, how would a system malfunction be
detected for correction? Ms. Allen responded: "It's probably not hurting anybody if they're not
-- if it's not running into their neighbor's yard or somewhere else. It's most likely not causing a
problem as long as they maintain the setbacks...."
While this litigation was pending, three of the Plaintiffs installed mulch basin gray water
systems. 27 Prior to testifying, Ms. Allen visited Plaintiffs' farms to view those systems. She
testified that Plaintiffs' systems included all the requisite components of serviceable mulch basin
systems, and that the basic design of Plaintiffs' systems would be legal under the codes and
practices of the western states with which she is most familiar. But she identified one principal
problem with all of the Plaintiffs' systems as built: They were too small. Like the Government's
witnesses, she observed saturated soil and pooling of waste water in Plaintiffs' systems. She

Ms. Allen advocates codes that "make it easy for people to install an affordable [mulch basin gray water]
system with not a lot of regulatory oversight," and she recommends "low barriers for people to comply with" in
installing and maintaining such systems.
27
The Government faults Plaintiffs for constructing their mulch basin systems without seeking prior
governmental approval. The Plaintiffs characterized the systems they installed as experiments intended to see if
they would work. The Court does not find these experiments to be improper; this litigation was pending, and these
systems were built in good faith as a "better-than-nothing" improvement upon the unacceptable straight-pipe status
quo.
26

Pet. App. 63

attributed these problems to a mulch basin floor area not large enough for the volume of flow.
The systems lacked necessary capacity, resulting in system saturation and the backing up of
untreated gray water in the basins. 28
The remedy for this defect, according to Ms. Allen, was to create more capacity by
dividing the flow and sending the gray water to multiple basins. Page one of Exhibit 42 is a
diagram illustrating gray water flow being divided, and then divided again, to send the effluent to
four separate mulch basins, each of which has a 25 square foot soil interface area. In Ms. Allen's
opinion, the design of Plaintiffs' mulch basin systems was basically sound, but undersized.
Before turning to an analysis of the evidence and a statement of my reasoning, I will note
that the Government argues, with some justification, that the Plaintiffs' proposed alternative was
a moving target for the Government during this litigation, and even during the trial. The greatercapacity design diagramed in Exhibit 42 appeared for the first time during Ms. Allen's rebuttal
trial testimony. The Plaintiffs' alternative design has evolved, to a degree, during the pendency
of this case, and as a result the Government has had to adapt its position on the fly to respond to
the latest iteration of Plaintiffs' proposed alternative. The Government has objected to this.
I have overruled this objection. The Government knew long before the trial that
Plaintiffs proposed a mulch basin system, and the essentials of that system have not changed.
The Exhibit 47 design is simply an enlarged version of the Exhibit 7 design. There is no
indication here that Plaintiffs have purposefully hidden the ball or sandbagged the Government,
holding back important information and revealing it only when it was too late for the
Government to effectively respond. The Government has not been dealt with unfairly, nor has it

Ms. Allen also noted that in at least one of the Plaintiffs' systems, the woodchips were too fine (not
sufficiently coarse). This had resulted in clogging and premature decomposition. Ms. Allen advocates use of a
heavier, chunkier grade of chip that does not break down so quickly.
28

Pet. App. 64

been prejudiced by the fact that Plaintiffs' design ideas have progressed as the case has
developed. Further, the burden of proof is on the Government to establish that its compelling
state interest cannot be served by "a less intrusive alternative." Hershberger I at 285. Plaintiffs
have come forward with and advocated an alternative proposal -- just as the Amish defendants
did in Hershberger. But the burden of proof is not theirs. If the evidence demonstrated that
there is a workable, less religiously intrusive alternative that would serve the Government's
compelling interests, I would find for the Plaintiffs and order the constitutional relief they seek;
and I would do so even if that alternative only came to light for the first time at trial, and even if
it was not one proposed or advocated by Plaintiffs.
So let us analyze the evidence. Part of the Government's case was a critique of what
might be called procedural defects and potentially correctable operational shortcomings in
Plaintiffs' mulch basin systems. For example, the systems Plaintiffs built were constructed
without Plaintiffs having obtained permits from the Government -- permits that would certainly
have been denied, if requested, because the systems are illegal under current law and regulations.
Further, Plaintiffs' mulch basin systems were not designed by MPCA-certified designers, as
required by Minnesota law. Plaintiffs' systems were built without the soil analysis necessary to
determine that they had the requisite "three feet of separation" beneath the basins, and without
the site inspections required to determine that they were properly set back from waterways and
karst features. The systems used a distribution medium not approved by MPCA. And they were
put into use without required post-installation inspections.
Let us put aside for purposes of this analysis the Plaintiffs' failure to ask the Government
for permits. Plaintiffs could not have gotten permits to install mulch basins; and the
constitutionality of the Government's insistence on septic systems is what this lawsuit is all

Pet. App. 65

about. And let us assume that any future mulch basin systems would be installed only after
Plaintiffs cooperate with procedural and technical steps to which they say they are agreeable:
Use of a larger capacity design; pre-construction soil analysis to determine whether the bottom of
the system has three feet of separation from redoximorphic features and bedrock; and
Government inspections of the systems before, during, and after construction to ensure the
systems have gone in according to plan. Setting aside for present purposes these more peripheral
issues, let us address the central question: Is the mulch basin system an alternative that would
accomplish the Government's compelling interest of ensuring public health and environmental
safety?
The answer to that question is: No. Based on my consideration of the entire record, I
find that the Government's compelling state interests cannot be achieved by less religiously
burdensome means.
The finding with which I begin my analysis is that untreated household gray water
presents a serious risk to public health via disease-causing viruses and bacteria, and endangers
the environment with nitrogen and phosphorous. I conclude that the idea that gray water poses
only a "very small risk" is erroneous. The gray water septic system required by the Government
reliably and effectively treats household gray water over the long term with minimal
maintenance, ensuring that contaminants and disease pathogens do not come into contact with
people or enter the surface or ground waters untreated; and that problematic nutrients are not
released untreated into the environment. The evidence convinces me that the mulch basin gray
water system does not provide that same protection.
For more than 20 years Dr. Sara Heger has been a research engineer at the University of
Minnesota Water Resources Center specializing in septic system research and education. Her

Pet. App. 66

doctorate is in water resource science. She works in the university's Onsite Sewage Treatment
Program. Dr. Heger persuasively testified to several problems with mulch basin systems and
their feasibility in Fillmore County.
First, Dr. Heger testified to what is, in her opinion, the "biggest problem": It is
questionable whether one could even find sites on the Plaintiffs' farms in Fillmore County that
would provide three feet of separation from the perched water table and bedrock, beneath a two
to four foot-deep mulch basin. The Court asked Dr. Heger a hypothetical question about the
possibility of achieving the Government's public health and environmental goals using a mulch
basin system, and the question required her to accept the premise that "we've got the three feet"
of separation. Dr. Heger disputed the plausibility of that assumption, testifying as follows: "I
actually think you're expecting a lot, because a lot of the soil conditions around here do not allow
for a system in-ground with three foot of separation around them. So I think you're dreaming a
dream that we -- that doesn't exist. And I can't say that a hundred percent, but that soil condition
is very difficult to find." If one is convinced, as I am, that three feet of dry oxygenated soil is
required beneath the system-soil interface, sites that would satisfy that requirement may simply
not be available to the Plaintiffs, regardless of their willingness to otherwise comply with the
Government's requirements.
Second, Dr. Heger testified that woodchip mulch would quickly saturate, break down,
and plug up with solids: "It would seal up relatively quickly across the bottom." She testified
that the mulch would "gum up" with solids, and "those solids are also going to travel to the
interface where the sewage is going to the soil, and they will cause it to plug up."
Q.
A.
Q.
A.

And when it seals up, it backs up.
Yep.
And it stops performing its job.
Yes.

Pet. App. 67

Q.
A.
Q.
A.
Q.
A.

And the answer to that is frequent changing the mulch.
Relocating.
Oh. Okay.
It's not changing the mulch.
All right.
If the soil plugs up, you'll have to move to another location unless you take
that soil off, and then there's the risk of smearing and compacting that soil.
When you do that, it may not take water as well again.

Dr. Heger does not believe that woodchips would adequately spread the waste water over the soil
interface to get the unsaturated flow necessary for effective treatment. She also testified that
because woodchips are organic, they break down and create their own oxygen demand,
competing for the oxygen necessary for aerobic waste water treatment. Minnesota prohibits use
of biodegradable substances such as woodchips as distribution media in waste water treatment
systems because of the problems the decomposition of these materials creates. The evidence
convinces me that that prohibition makes sense. I am persuaded by the Government's evidence
that woodchip mulch is not suitable for this purpose.
But assuming sites satisfying the three feet of separation requirement are available on
Plaintiffs' farms; and earthen basins dug at those locations are filled with biodegradable
woodchips; could such a system provide ground water treatment that protects human health and
the environment? Dr. Heger testified that this might be theoretically possible. But the
maintenance required to keep such a system properly operating would be so burdensome as to
render it unfeasible.
Ms. Allen had expressed the viewpoint that the twice-yearly maintenance required by
mulch basins -- shoveling wet, dirty, decomposing mulch out of the basin, hauling it away, and
replacing it with fresh mulch -- is not a big job. But in Dr. Heger's opinion, this maintenance
requirement makes the mulch basin concept unworkably labor intensive. As Dr. Heger testified,

Pet. App. 68

"Someone is going to need to do a very high level of maintenance." 29 I find Dr. Heger's opinion
persuasive.
Dr. Heger testified that "we design systems here in Minnesota to have very little
maintenance and to last with a design life of 25-plus years." The idea is not merely to afford
Minnesota homeowners greater leisure time. This emphasis on maintenance-free system
longevity is intended "to minimize the risk to public health and the environment in the...most
long term way." Dr. Heger testified: "So it gets down to risk. That a system that needs this
high a level of maintenance has a very high level -- has a much higher level of risk." In her
opinion, to remain serviceable, the mulch basin system would require such "a very high level of
maintenance and oversight" that the system is rendered unworkable. Such a system "would not
last long term," according to Dr. Heger, and therefore would not provide reliable, long term
protection of public health and the environment. Dr. Heger summed up her opinion on this point
with: "I don't think it's practical." 30
Ms. Allen, on the other hand, is confident that properly sized mulch basins would provide
effective treatment of Amish household gray water in Fillmore County. I find Ms. Allen's
opinions less persuasive and I give them less weight for several reasons.

Amish people are accustomed to taking more time and expending more physical labor than are their nonAmish neighbors, to accomplish the same result. A non-Amish farmer can turn a tractor key and plow in an hour
more acres than an Amishman can plow in a week with his team of horses. A task that is seen as prohibitively labor
intensive in the "English" world might be viewed differently by the Amish.
But there is no evidence that Amish farmers have any more time on their hands than do non-Amish farmers.
And as Dr. Heger testified, "I have yet to find a farmer who has time... They're the hardest working people I know."
Her point is that farmers are unlikely to have available time to devote to the extraordinary monitoring and upkeep
requirements that would come with biannually maintaining mulch basins totaling 100 square feet in area.
30
Dr. Heger stated the opinion that if such a high-maintenance gray water treatment system were allowed,
the greater risk it poses would require that it be "check[ed] on frequently" to assure that it was continuing to operate
properly. "We have determined that when there is a higher level of risk, we are going to then require something
called an operating permit, so that's a way for the regulatory body to assure that that system is protecting public
health and the environment."
The Plaintiffs have expressed willingness to cooperate with regulatory steps connected with the installation
of mulch basin systems. But they have not indicated a similar willingness to cooperate with "a very high level of
[continuing] oversight" of the operation of their systems, once constructed.
29

Pet. App. 69

First, the credibility of Ms. Allen's opinions was undermined by the haziness of her
understanding of the important "three feet of separation" concept. To be sure, Ms. Allen knew
that three to five feet of separation between the bottom of the system and the "ground water
table" is necessary. But she did not know the significance of redoximorphic features (she was
not able to define that term) as the marker of the depth of the "standing" or "perched" water table
relevant here. She opined that the level of the "ground water table" can be easily determined by
simply "digging a hole to show that there is no water in the hole." She testified that no water at
the bottom of a three-foot hole (dug beneath the basin) means "you have more than three feet
separation." But Dr. Heger convincingly testified that the perched water table "fluctuates
throughout the year," meaning that Ms. Allen's method of determining its location by digging a
hole would be unreliable.
As an alternative to that method of identifying the location of the ground water table, Ms.
Allen testified that she had consulted the Minnesota Well Index for information regarding the
depth at which drillers had first encountered water in drilling nearby wells. She testified that she
found most of the "ground water table depths" in the "really close geographic area [were] over
100 feet, most were between 100 and 200, some were 300 feet." She testified: "From looking at
that I would assume that the ground water in that area is going to be much deeper than five feet
needed."
The problem with this testimony is that Ms. Allen was confusing the shallower
"standing" or "perched" water table -- the one that is important here, that is identified by
redoximorphic features, and that can often be just two or three feet below the surface in Fillmore
County -- with the deep aquifers that are reported in the Minnesota Well Index. Dr. Heger and
MPCA soil scientist Brandon Montgomery testified, and I am persuaded, that the Minnesota

Pet. App. 70

Well Index provides no information useable in determining whether there is three feet of
separation beneath a waste water treatment system. 31
The three-feet-of-separation requirement is central to an accurate assessment of the
feasibility of the treatment methods at issue here; and Ms. Allen's understanding of what she
termed "ground water table stuff" was revealed to be rudimentary and flawed. I do not imply
that Ms. Allen made any misleading claim that she was a "ground water expert." 32 To the
contrary, she specifically disclaimed such qualifications. I simply conclude that the confidence
one might otherwise place in Ms. Allen's opinions regarding the serviceability of mulch basin
gray water systems in Fillmore County is undercut by her lack of expertise on a subject crucial to
the analysis.
The weight I give Ms. Allen's opinions is also influenced by her view that the risk gray
water poses to public health is really very minimal. This idea was clearly on display when she
testified that gray water is "probably not hurting anybody if they're not -- if it's not running into
their neighbor's yard or somewhere else. It's most likely not causing a problem as long as they
maintained the setbacks..."

Mr. Montgomery testified that the Minnesota Hydrogeology Atlas and Well Index "traditionally
highlight or locate where ground water is found in what we call a water table, and when we say "water table" we'd
be specifically talking about like a standing water table that you draw water -- well water from. That's different than
the ground water that we're defining and characterizing in the SSTS program where we're highlighting those perched
water tables, which tend to be a lot higher in the soil profile than the water tables that you would find in the Well
Index or the Hydrogeology Atlas...So we would determine where the water table is located or ground water for an
SSTS by doing the actual soil boring on site where you're looking to place the system, and then that is determined
specifically by using the presence of redoximorphic features in the soil."
32
Ms. Allen expressed an understanding that it is best to "keep the gray water as high up in the soil as
possible because it is more biologically active," and that at a certain depth there are no longer "helpful bacteria."
But asked about the significance of the "saturated soil" level to the efficacy of treatment, Ms. Allen acknowledged
that she was "not equipped to answer questions, really detailed questions, about ground water table." Asked if she
understood that the system needed to be three feet above the "level where you no longer have bacteria...for it to be
an effective treatment system...and if you aren't, that then treatment is ineffective?" She answered: "I don't know. I
don't know the answer to that." Cross examined about her understanding of Minnesota's definition of "ground
water," and its relationship to the "water table," Ms. Allen indicated "that you might want to ask a different witness
because I am not a ground water expert. I want to defer any ground water table questions...to the other expert that's
coming up."
31

Pet. App. 71

The notion that untreated gray water presents no real danger unless it is running onto
someone else's property or into a river or stream was again evident when she described the
reduced risk posed by gray water in rural settings:
I think the concerns around gray water really diminish when you get on to -- in a
rural situation as long as you're not too close to a waterway because you don't have
the neighbors, you don't have the impact of other people. You have the space. You
don't have problems with meeting these setbacks typically.
Indeed, it seems to be Ms. Allen's opinion that the public health risk is so small that how
one disposes of untreated gray water ought to be, at least in some circumstances, a matter of
informed personal choice. Asked about the practice of simply throwing household water directly
onto the ground, something that has occurred in Amish households in the past, Ms. Allen first
pointed out that this was "technically" not "gray water," because it had "not gone down a drain."
Asked if it would be appropriate, from a public health standpoint, to "just take all your water
and...throw it out in a pail on the yard," Ms. Allen responded: "Well, I would think about what
are the risks, if it's, you know, my gray water that I just made, I'm not going to get myself sick
from anything. So if it's my gray water and I choose to dump it on my own yard, that would be
my choice. And if it's -- you know, if my own yard is not by a creek or a waterway, I'm not
potentially risking health to the broader environment. So as long as I'm aware of what I could
potentially be doing that's risky and I still want to do it, then there is, in my opinion, nothing
unsafe about the practice."
As I have stated above, I am persuaded by the Government's evidence that untreated gray
water poses a significant public health risk. I think Ms. Allen is wrong in describing that risk as
negligible. But the fact that she sees the risk as minimal helps explain her view that a do-ityourself system is are adequate to deal with it. The "very simple" system matches the "very
small" risk.

Pet. App. 72

I think there is also reason to question the overall objectivity -- and thus the accuracy and
reliability, though certainly not the sincerity -- of the opinions Ms. Allen has provided. She is a
proponent of mulch basin systems. All of us tend to underestimate the deficiencies and magnify
the virtues of things we believe in. I detect some of that in Ms. Allen's opinions. She shrugs off
objections to mulch basin systems as based on inexperience and a lack of knowledge. 33 Close
governmental regulation and monitoring of mulch basin systems is unnecessary in her opinion;
"honor system"-type self-regulation is sufficient. That Amish gray water contains kitchen and
diaper water that California prohibits in its gray water systems will be no problem, in Ms. Allen's
view, in Minnesota. But what about the fact that Plaintiffs' mulch basin systems all failed in
their first year of operation? Just make them bigger and they will be fine, Ms. Allen assures us. 34
Ms. Allen's opinions might be summed up as follows: She thinks that the risk posed by
gray water to human health is overstated by inexperienced people like Dr. Heger; and that in the
thirty states that do not permit mulch basin systems, gray water treatment is misguidedly overregulated, over-engineered and overpriced. I am not convinced by these views and find the
Government's evidence more persuasive on all of these points.
Ms. Allen testified that mulch basin gray water treatment systems are permitted in twenty
states, but she acknowledged that most Upper Midwest states do not allow them. The climates of
Arizona and California are so dissimilar in average temperature and precipitation to Minnesota's,
that the Court can take little guidance from the experience of those states. The evidence

Ms. Allen's critique of Minnesota's rejection of mulch basins as a gray water treatment mechanism was
as follows: "Some states don't have a lot of experience and so their rules don't really match up with what is
protective of health and safety and what's reasonable for people to comply with." These inexperienced states had
"create[d] a modified septic rule" because they have not "br[ought] in gray water experts and people using gray
water."
34
Perhaps it might be argued that Dr. Heger is similarly an advocate of the septic system model. She
certainly believes, and strongly so, that septic systems are the only safe, practical, long-term option for gray water
treatment in Minnesota. But Dr. Heger is a researcher at a major university, whose opinions, I am satisfied, have a
firmer grounding in science and academic rigor.
33

Pet. App. 73

indicated that mulch gray water systems are also permitted in Montana and Wyoming; but little
or no evidence was presented about the extent of use, regulation, and performance of mulch
systems in those states. On this record, mulch systems in Montana and Wyoming provide the
court no direction. 35 In a water-stressed part of the country, with a warmer climate than
Minnesota's and less annual rainfall to saturate mulch basins, with a topography not
characterized by fissured limestone, allowing homeowners to use bath and laundry water to
irrigate their trees and bushes with minimally regulated mulch basins may make sense. But the
evidence does not convince me that such systems would be as workable in Minnesota as Ms.
Allen contends.
Had Plaintiffs' own experimental mulch basin systems proved successful, they might
have been strong evidence of a practical, less religiously intrusive alternative. But they did not
work, and instead illustrate the Government's objections to mulch basin systems. The Court is
presented, as an alternative, with a purely hypothetical mulch basin system, an unproven quantity
the workability of which is at best speculative, and at worst a thrice-demonstrated failure.
This record contains no evidence of a single, properly working mulch basin system in
Minnesota; or in any other northern tier state with polar vortex temperatures. I find that the only
practical and proven means of accomplishing household gray water treatment on the farms of
Fillmore County, including the Amish farms, is a septic system of the type required by Fillmore
County and MPCA. The Government's evidence convinces me that the proposed mulch
systems, even with the capacity expansion and siting improvements to which the Plaintiffs are
agreeable, would not accomplish the Government's compelling public health and environmental
safety purposes.
I note from a review of Exhibit 30 that some type of mulch basin system may be permitted in Wisconsin.
However, no information about that neighboring state's experience with these systems was offered at trial.
35

Pet. App. 74

Conclusion
In Yoder the United States Supreme Court said: "A way of life that is odd or even erratic
but interferes with no rights or interests of others is not to be condemned because it is different."
Yoder at 223-24 (italics added). I would never characterize Amish beliefs and the way of life
guided by those beliefs as either odd or erratic. But to the degree their way of life would
introduce untreated gray water into the soil and waters of Fillmore County, it interferes with the
rights and interests of others. This is a situation in which the Amish cannot, despite their most
sincere efforts, be separate from the world. All water is connected, and all of us, Amish and
English alike, drink from the same aquifers. Because I find that the Government's public health
and environmental safety interests cannot be accomplished by a less religiously intrusive
alternative means, I deny Plaintiffs the relief they seek under the Minnesota Constitution and
RLUIPA.
J.F.C.
Assistance with research and preparation provided by Ingrid Bergstrom, J.D.

Pet. App. 75

$XJXVW

Pet. App.
Pet.
App. 76
76

Pet. App. 77

Pet. App. 78

5. Warrantied Systems
Any SSTS system classified as a “Warrantied System” as found in MPCA Rules 7080 is
prohibited in Fillmore County.

SECTION 5
SSTS Standards
501. Standards Adopted by Reference
The County hereby adopts by reference Minnesota Rules, Chapters 7080 and 7081 in their
entirety as now constituted and from time to time amended. This adoption does not supersede
the County’s right or ability to adopt local standards that are in compliance with Minnesota
Statute 115.55, as amended.
502. Alternative Local Standards
1. Alternative Local Standards for New, Replacement, and Existing SSTS
Alternative local standards will apply to dwellings that do not have indoor toilet facilities,
but still use water for their daily needs, in the following Townships within Fillmore
County: Amherst, Bristol, Canton, Harmony, Holt, Newburg, Norway, Preble, Preston,
and York. This type of system is intended to serve the Amish community and is intended
to serve the needs of the Amish population within the above listed specific townships
within Fillmore County.
a. Local standards.
1. Dwellings that do not have a toilet located in the home may be considered a Type
IV Gray Water System and labeled, for the County’s purpose, as Amish Gray
Water Systems (this does not include seasonal dwellings);
2. Such systems do not have bedroom classifications for determining gallons per day
(gpd), instead, these types of systems should be calculated on a flat usage of 100
gpd;
3. Use a minimum septic tank size of 1,000 gallons;
4. Install a minimum of one-hundred (100’) feet of drainfield;
5. May use six (6”) inches of rock instead of twelve (12”) inches;
6. Require three (3’) feet of separation unless a variance is granted by the State; and
7. Follow all other rules and regulations in reference to Minnesota Rules Chapter
7080.
b. Existing systems that are not in compliance with this rule must be upgraded, replaced,
or its use discontinued within eighteen (18) months of the owner’s receipt of a Notice
of Violation.
2. Alternative Local Standards Requirements
This type of gray water system may be installed by the homeowner if all of the following
regulations are met:

10

Pet. App. 79

a. The owner has a design developed by an individual licensed by the State of
Minnesota to design subsurface sewage treatment systems;
b. A septic system permit must be obtained from the County to install the gray water
system;
c. The owner of the gray water system must attend an instructional class conducted by
the Local Unit of Government for proper installation, operation and maintenance of a
gray water system, if the system is installed by the homeowner;
d. The landowner or his/her family members may be the person(s) digging and installing
the gray water system. If there are mechanical means used for the installation of the
system such as a backhoe, skid steer or any other device used for digging, this person
must be an immediate family member or be an individual licensed by the State of
Minnesota to do installation of subsurface sewage treatment systems, as well as
licensed to use such equipment in general;
e. Toilet waste must not be discharged to a gray water system. There must be proof of
use of an outdoor privy that is detached from the house or wash room or the presence
of a chemical toilet. New and existing homes must have at least a ten (10’) foot
section of Schedule 40 two (2”) inch PVC pipe included in the line leading to the
septic tank. This line must be immediately leaving the house of a gray water system.
The largest line that may be attached or added to the four (4) inch line is a Schedule
40, two (2”) inch PVC pipe may be used; and
f. The gray water system must be inspected by the LUG before, during, and prior to
covering the system with soil in order for compliance inspections to be completed.
3. Locations where the Alternative Local Standards do not Apply
These alternative local standards shall not apply to systems in shore land or wellhead
protection areas or to systems serving food, beverage, or lodging establishments.
503. Amendments to the Adopted Standards
1. List of Adopted Standards
a. Fillmore County may require any person seeking any exemption listed in 7083.700,
as amended, to attend MPCA certified SSTS construction training and/or sign and
have on record at the County Zoning Department an agreement indemnifying the
County against claims due to failure of the landowner to comply with the provisions
of this ordinance.
b. Fillmore County Permitted Sewage Treatment Systems installed prior to April 1,
1996, and not located in Shore land or Wellhead Protection Area or serving a food,
beverage, or lodging establishment shall have not less than two (2) feet of vertical
separation between the system bottom and saturated soil or bedrock.
c. All costs associated with the repair or replacement of a failing/non-compliant sewage
treatment system shall be the responsibility of the property owner or as otherwise
provided for in written agreement and on file at the County Zoning Department.
d. When official records of a sewage treatment system are not on file at the department
for a property involved in the transfer or sale of that property; it shall be considered a
violation of this ordinance, and a penalty may be imposed by the County as set and on
file in the County Zoning Office.
11

Pet. App. 80

e. An approved Fillmore County Holding Tank Service Agreement shall be signed and
on record in the department prior to any holding tank installation.
2. Determination of Hydraulic Loading Rate and SSTS Sizing
Table IX entitled “Loading Rates for Determining Bottom Absorption Area for Trenches
and Seepage Beds for Effluent Treatment Level C and Absorption Ratios for Determining
Mound Absorption Areas Using Detail Soil Descriptions” and Table IXa entitled
“Loading Rates for Determining Bottom Absorption Area for Trenches and Seepage
Beds for Effluent Treatment Level C and Absorption Ratios for Determining Mound
Absorption Areas Using Percolation Tests” from Minnesota Rules, Chapter 7080.2150,
Subp.3(E) and herein adopted by reference, as amended, shall both be used to size SSTS
infiltration areas using the larger sizing factor of the two (2) for SSTS design.
3. Compliance Criteria for Existing SSTS
Fillmore County permitted ISTS built before April 1st, 1996; located outside of areas
designated as shore land areas, wellhead protection areas, or SSTS providing sewage
treatment for food, beverage, or lodging establishments must have at least two (2) feet of
vertical separation between the bottom of the dispersal system and seasonal saturation or
bedrock.
SSTS built after March 31st, 1996 in Fillmore County; shall have a three-foot vertical
separation between the bottom soil infiltrative surface and the periodically saturated soil
and/or bedrock. Existing systems that have no more than a fifteen 15 percent reduction in
this separation distance (a separation distance no less than 30.6 inches) to account for
settling of sand or soil, normal variation of separation distance measurements and
interpretation of limiting layer characteristics may be considered compliant under this
Ordinance. The vertical separation measurement shall be made outside the area of
system influence but in an area of similar soil, per 7080.1500, Subp.4, as amended.
4. Holding Tanks
Standards:
Installation of holding tanks, the specific conditions under which their use will be
allowed are specified in 7082.0100, Subp.3G, as amended. All holding tanks shall
comply with 7080.2290, items A through F, as amended. Further, all owners of holding
tanks may be issued an operating permit 7082.0600, Subp.2A, as amended, which will
include the provisions listed in 7082.0600, Subp.2B, (1) through (8), as amended. See
Section 5. 502.02 of this Ordinance.
Fillmore County will severely limit the use of holding tanks. Yet, holding tanks are a
practical method of handling wastewater for a variety of applications where water use is
low such as in seasonal homes, buildings located on sensitive sites, parks, playgrounds
service station drains, etc. However, reliable management, which ensures that the tanks
are pumped and the contents are hauled to a permitted treatment facility, is a critical and
necessary element of holding tank use. Proper management assured, holding tanks offer
safe, effective and affordable options for low water use applications.
12

Pet. App. 81

Restrictive Provision: Holding tanks may be allowed where it can be shown conclusively
that a SSTS permitted under this Ordinance cannot be feasibly installed. Holding tanks
shall not be allowed for all other wastewater applications.
Conditional Provision: Holding tanks may be used for limited water use under the
following conditions:
a. The owner shall install a holding tank in accordance with Minnesota Rules Section
7080.2290, as amended.
b. The owner may be required to install a water meter to continuously record indoor
water use.
c. The owner shall maintain a valid contract with a licensed liquid waste hauler to pump
and haul the contents from the holding tank to a licensed treatment facility and
provide a copy of the contract to the Fillmore County Zoning Office. The contract
that must be used is the Pumpers Contract as provided for by the Department.
d. The holding tank shall be regularly pumped, no less frequently than monthly or other
regular schedule agreed upon with the Department.
e. The pumper shall certify each date the tank is pumped, the volume of the liquid waste
removed, the treatment facility to which the waste was discharged, and the water
meter reading at the time of pumping and report to the Department that the holding
tank is pumped less frequently than monthly or other schedule agreed upon with the
Department.
Failure to meet these requirements will result in this matter being referred to the County
Attorney for prosecution.
504. Variances
1. Variance Requests
A property owner may request a variance from the standards as specified in this
ordinance pursuant to county policies and procedures.
2. Affected Agency
Variances that pertain to the standards and requirements of the State of Minnesota
Department of Health must be approved by the affected State Agency pursuant to the
requirements of the State Agency. Variances not related to the size or type of system
may be authorized on-site by a Fillmore County Septic Inspector.
Variance requests to deviate from the design flow determination procedures in Minnesota
Rules Chapter 7081-0110 if the deviation reduces the average daily estimated flow from
greater than 10,000 gallons per day to less than 10,000 gallons per day, or to provisions
in 7080.2150, Subp.2 and 7081.0080, Subp.2 through 5, as amended, regarding the
vertical separation required beneath the treatment and dispersal soil system and saturated
13

Pet. App. 82

soil or bedrock from the required three (3) feet of unsaturated soil material (except as
provided in 7082.1700, Subp.4D) must be approved by MPCA.
Anyone requesting a variance from any technical requirements in this Ordinance shall:
a. Any property owner requesting relief from the strict application of the provisions in
this Ordinance must complete and submit an Application for Variance to the
Department on a form provided by the Department. The variance request must
include, as applicable:
1. A statement identifying the specific provision or provisions in the ordinance from
which the variance is requested;
2. A description of the hardship or difficulty that prevents compliance with the rule;
3. The alternative measures that will be taken to achieve a comparable degree of
compliance with the purposes and intent of the applicable provisions;
4. The length of time for which the variance is requested, if applicable;
5. Cost considerations only if a reasonable use of the property does not exist under
the term of the Ordinance; and
6. Other relevant information requested by the Department as necessary to properly
evaluate the variance request.
b. The appropriate fee shall be paid at the time of submittal of the application to receive
consideration.
c. Upon receipt of the variance application, the Department shall decide if a site
investigation conducted by the Department will be necessary.

SECTION 6
SSTS Permitting
601. Permit Required
It is unlawful for any person to construct, install, modify, replace, or operate a SSTS without the
appropriate permit from the Fillmore County Zoning Office. The issuing of any permit,
variance, or conditional use under the provisions of this ordinance shall not absolve the applicant
of responsibility to obtain any other required permit.
602. Sewer Permit
A permit shall be obtained by the property owner or an agent of the property owner from the
County prior to the installation, construction, replacement, modification, alteration, repair, or
capacity expansion of a SSTS. The purpose of this permit is to ensure that the proposed
construction activity is sited, designed, and constructed in accordance with the provisions of this
Ordinance by appropriately certified and/or licensed practitioner(s).
1. Activities Requiring a Permit
A permit is required for installation, replacement, or for any repair of a SSTS or its
components that could potentially alter the original function of the system, change the
14

Pet. App. 83

